<html>
<title> - LEGISLATIVE HEARING ON DISCUSSION DRAFT OF H.R., TO EXPEDITE UNDER THE NATIONAL ENVIRONMENTAL POLICY ACT OF 1969 AND IMPROVE FOREST MANAGEMENT ACTIVITIES ON NATIONAL FOREST SYSTEM LANDS, ON PUBLIC LANDS UNDER THE JURISDICTION OF THE BUREAU OF LAND MANAGEMENT, AND ON TRIBAL LANDS TO RETURN RESILIENCE TO OVERGROWN, FIRE-PRONE FORESTED LANDS, AND FOR OTHER PURPOSES, ``RESILIENT FEDERAL FORESTS ACT OF 2017''</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



                        DISCUSSION DRAFT OF H.R. _____, 
                        ``RESILIENT FEDERAL FORESTS 
                          ACT OF 2017''

=======================================================================

                          LEGISLATIVE HEARING

                               BEFORE THE

                     SUBCOMMITTEE ON FEDERAL LANDS

                                 OF THE

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                        Thursday, June 15, 2017

                               __________

                            Serial No. 115-9

                               __________

       Printed for the use of the Committee on Natural Resources


         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
      

                     COMMITTEE ON NATURAL RESOURCES

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Grace F. Napolitano, CA
  Chairman Emeritus                  Madeleine Z. Bordallo, GU
Louie Gohmert, TX                    Jim Costa, CA
  Vice Chairman                      Gregorio Kilili Camacho Sablan, 
Doug Lamborn, CO                         CNMI
Robert J. Wittman, VA                Niki Tsongas, MA
Tom McClintock, CA                   Jared Huffman, CA
Stevan Pearce, NM                      Vice Ranking Member
Glenn Thompson, PA                   Alan S. Lowenthal, CA
Paul A. Gosar, AZ                    Donald S. Beyer, Jr., VA
Raul R. Labrador, ID                 Norma J. Torres, CA
Scott R. Tipton, CO                  Ruben Gallego, AZ
Doug LaMalfa, CA                     Colleen Hanabusa, HI
Jeff Denham, CA                      Nanette Diaz Barragan, CA
Paul Cook, CA                        Darren Soto, FL
Bruce Westerman, AR                  Jimmy Panetta, CA
Garret Graves, LA                    A. Donald McEachin, VA
Jody B. Hice, GA                     Anthony G. Brown, MD
Aumua Amata Coleman Radewagen, AS    Wm. Lacy Clay, MO
Darin LaHood, IL
Daniel Webster, FL
David Rouzer, NC
Jack Bergman, MI
Liz Cheney, WY
Mike Johnson, LA
Jenniffer Gonzalez-Colon, PR

                       Jason Knox, Chief of Staff
                      Lisa Pittman, Chief Counsel
                David Watkins, Democratic Staff Director
                                
                                ------                                

                     SUBCOMMITTEE ON FEDERAL LANDS

                      TOM McCLINTOCK, CA, Chairman
            COLLEEN HANABUSA, HI, Ranking Democratic Member

Don Young, AK                        Niki Tsongas, MA
Stevan Pearce, NM                    Alan S. Lowenthal, CA
Glenn Thompson, PA                   Norma J. Torres, CA
Raul R. Labrador, ID                 Ruben Gallego, AZ
Scott R. Tipton, CO                  Jimmy Panetta, CA
Bruce Westerman, AR                  A. Donald McEachin, VA
  Vice Chairman                      Anthony G. Brown, MD
Darin LaHood, IL                     Vacancy
Daniel Webster, FL                   Raul M. Grijalva, AZ, ex officio
David Rouzer, NC
Jack Bergman, MI
Liz Cheney, WY
Rob Bishop, UT, ex officio

                              -----------

                                CONTENTS

                              -----------                              
                                                                   Page

Hearing held on Thursday, June 15, 2017..........................     1

Statement of Members:

    Hanabusa, Hon. Colleen, a Representative in Congress from the 
      State of Hawaii............................................     4
        Prepared statement of....................................     6
    McClintock, Hon. Tom, a Representative in Congress from the 
      State of California........................................     1
        Prepared statement of....................................     3
    Westerman, Hon. Bruce, a Representative in Congress from the 
      State of Arkansas..........................................     7
        Prepared statement of....................................     8

Statement of Witnesses:

    Freeman, Tim, Commissioner, Douglas County Board of 
      Commissioners, Roseburg, Oregon............................    22
        Prepared statement of....................................    24
    Furnish, Jim, Former Deputy Chief, U.S. Forest Service, 
      Silver Spring, Maryland....................................    19
        Prepared statement of....................................    20
    MacDonald, Granger, Chairman, National Association of Home 
      Builders, Washington, DC...................................    15
        Prepared statement of....................................    16
    Neiman, Jim D., President and CEO, Neiman Enterprises, 
      Hulett, Wyoming............................................    10
        Prepared statement of....................................    12

Additional Materials Submitted for the Record:

    Crapser, Bill, President, National Association of State 
      Foresters, June 13, 2017 Letter to Chairman Bishop and 
      Ranking Member Grijalva....................................    49
    List of documents submitted for the record retained in the 
      Committee's official files.................................    50
    Tidwell, Tom, Chief, U.S. Department of Agriculture, U.S. 
      Forest Service, Prepared statement.........................    48
                                     


 
  LEGISLATIVE HEARING ON DISCUSSION DRAFT OF H.R. _____, TO EXPEDITE 
UNDER THE NATIONAL ENVIRONMENTAL POLICY ACT OF 1969 AND IMPROVE FOREST 
MANAGEMENT ACTIVITIES ON NATIONAL FOREST SYSTEM LANDS, ON PUBLIC LANDS 
UNDER THE JURISDICTION OF THE BUREAU OF LAND MANAGEMENT, AND ON TRIBAL 
LANDS TO RETURN RESILIENCE TO OVERGROWN, FIRE-PRONE FORESTED LANDS, AND 
     FOR OTHER PURPOSES, ``RESILIENT FEDERAL FORESTS ACT OF 2017''

                              ----------                              


                        Thursday, June 15, 2017

                     U.S. House of Representatives

                     Subcommittee on Federal Lands

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10:02 a.m., in 
room 1324, Longworth House Office Building, Hon. Tom McClintock 
[Chairman of the Subcommittee] presiding.
    Present: Representatives McClintock, Pearce, Thompson, 
Tipton, Westerman, Rouzer, Bergman, Cheney; Hanabusa, Torres, 
and Panetta.
    Mr. McClintock. The Subcommittee on Federal Lands of the 
House Natural Resources Committee will come to order.
    Today, the Subcommittee meets to consider a draft 
legislation to save and restore what remains of our Federal 
forests after decades of neglect. This legislation is the 
result of many hearings that this Subcommittee has conducted on 
this subject over the last 4 years, incorporating the advice of 
top foresters in our country.
    We will begin with opening statements by the Chairman and 
the Ranking Member.

   STATEMENT OF THE HON. TOM McCLINTOCK, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. McClintock. As this Subcommittee has met to hear the 
testimony of foresters, scientists, legal experts, water 
agencies, and many others, one consistent point was made: our 
Federal forests are dying.
    Up until the mid-1970s, we managed our national forests 
according to well-established and time-tested forest management 
practices. These practices, supported by sound science, managed 
the forests to prevent vegetation and wildlife from overgrowing 
the ability of the land to support them.
    Not only did this assure robust and healthy forests capable 
of resisting fire, disease, and pestilence, it also supported a 
thriving economy. Revenues from the sale of excess timber, 
grazing and cabin permits, mining, and recreational activities 
provided a steady stream of revenues to the Treasury, which 
could, in turn, be used to further improve the public lands.
    But 40 years ago, we replaced these sound management 
practices with what can only be described as a doctrine of 
benign neglect. Ponderous, byzantine laws and regulations 
administered by a growing cadre of ideological zealots in our 
land management agencies promised to save our environment. The 
advocates of this doctrine have dominated our law, our 
policies, our courts, and our Federal agencies ever since.
    These policies have been weighed by experience and found 
wanting--not only have they decimated the economy, they have 
immeasurably damaged the environment.
    Surplus timber harvested from our national forests has 
dropped dramatically since the 1980s, while acreage destroyed 
by forest fire has increased concomitantly. Wildlife habitats 
that were supposed to be preserved are now being incinerated. 
Precipitation that once flowed to riparian habitats now 
evaporates in overgrown canopies, or is quickly claimed in the 
fierce competition of densely packed vegetation. We have lost 
vast tracts of national forests to beetle infestations, as 
weakened trees can no longer resist their attacks.
    Revenues that our forest management agencies once produced, 
and that facilitated our forest stewardship, have all but dried 
up. This has devastated rural communities that once thrived 
from the forest economy, while precious resources are diverted 
for lifeline programs, like Secure Rural Schools. Despite a 
growing population, visitation to our national forests has 
declined significantly as the health of our forests has 
decayed. We can no longer manage lands to prevent fire or even 
salvage dead timber once fire has destroyed it.
    Appeals, lawsuits, and especially the threat of lawsuits 
has paralyzed and demoralized the Forest Service, and created 
perverse incentives to do nothing. Worse, the steadily 
deteriorating situation is forcing managers to raid forest 
treatment and fire prevention funds to pay for the growing cost 
for wildfire suppression, creating a death spiral. The more we 
raid prevention funds, the more wildfires we have; the more 
wildfires we have, the more we raid prevention funds.
    By all accounts, our private lands are now conspicuously 
healthier than the public lands, precisely because they are 
freed from so many of the laws that are tying the hands of our 
public foresters. These policies may be making environmental 
law firms rich, but they are killing our national forests.
    The legislation before us is the first step toward 
restoring sound, rational, and scientific management of our 
national forests. I want particularly to single out the work of 
our colleague and resident forester, Mr. Westerman of Arkansas, 
for his work in advancing reforms in this bill.
    It requires forest managers to consider the cost of no-
action alternatives. It streamlines the fire and disease 
prevention programs, and ensures that fire-killed timber can be 
quickly removed to create both revenues and room to restore 
fire-damaged lands. It streamlines onerous environmental review 
processes without sacrificing environmental protection, and 
provides forest managers with alternatives to resolve frivolous 
lawsuits.
    This draft seeks to provide the Forest Service with tools 
that they can use immediately, building on existing authorities 
from the 2014 Farm Bill that have been successfully 
implemented.
    The management of the public lands is our responsibility. 
For 40 years, we have experimented with laws that have proven 
disastrous to the health of our forests, the preservation of 
our wildlife, and the economies of our communities. That is on 
us. And that is about to change.

    [The prepared statement of Mr. McClintock follows:]
 Prepared Statement of the Hon. Tom McClintock, Chairman, Subcommittee 
                            on Federal Lands
    Today the Subcommittee on Federal Lands meets to consider draft 
legislation entitled, ``Returning Resilience to our Overgrown, Fire-
Prone National Forests Act of 2017.'' This legislation has been 
compiled by the Committee following detailed hearings over several 
Congresses examining the declining health of our Federal forests and 
the Federal policies responsible.
    As this Subcommittee has met to hear the testimony of foresters, 
scientists, legal experts, water agencies and many others, one 
consistent point was made: our Federal forests are in grave danger.
    Up until the mid-1970s, we managed our national forests according 
to well-established and time-tested forest management practices. These 
practices, supported by sound science, managed the forests to prevent 
vegetation and wildlife from overgrowing the ability of the land to 
support it. Not only did this assure robust and healthy forests capable 
of resisting fire, disease, and pestilence, it also supported a 
thriving economy. Revenues from the sale of excess timber, grazing and 
cabin permits, mining and recreational activities provided a steady 
stream of revenues to the Treasury which could, in turn, be used to 
further improve the public lands.
    But 40 years ago, we replaced these sound management practices by 
what can only be described as a doctrine of benign neglect. Ponderous, 
byzantine, and highly litigious laws and bureaucratized agencies 
promised to ``save the environment.'' The advocates of this doctrine 
have dominated our law, our policies, our courts and our agencies ever 
since.
    These policies have been weighed by experience and found wanting: 
not only have they decimated the economy--they have immeasurably 
damaged the environment.
    Surplus timber harvested from of our national forests has dropped 
dramatically since the 1980s, while acreage destroyed by forest fire 
increased concurrently. Wildlife habitats that were supposed to be 
preserved are now being incinerated. Precipitation that once flowed to 
riparian habitats now evaporates in overgrown canopies or is quickly 
claimed in the fierce competition of densely packed vegetation. We have 
lost vast tracts of national forests to beetle infestations as weakened 
trees can no longer resist their attacks.
    Revenues that our forest management agencies once produced--and 
that facilitated our forest stewardship--have all but dried up. This 
has devastated rural communities that once thrived from the forest 
economy, while precious resources are diverted for lifeline programs 
like Secure Rural Schools. Despite a growing population, visitation to 
our national forests has declined significantly as the health of our 
forests has decayed. We can no longer manage lands to prevent fire or 
even salvage dead timber once fire has destroyed it.
    Appeals, lawsuits and especially the threat of lawsuits has 
paralyzed and demoralized the Forest Service and created perverse 
incentives to `do nothing.'
    Worse, the steadily deteriorating situation is forcing managers to 
raid forest treatment and fire prevention funds to pay for the growing 
costs for wildfire suppression, creating a death spiral--the more we 
raid prevention funds the more wildfires we have; the more wildfires we 
have, the more we raid prevention funds. This negative feedback loop 
must be stopped and we will give high priority to a lasting solution in 
the days ahead.
    By all accounts, our private lands are conspicuously healthier than 
the public lands precisely because they are freed from so many of the 
laws that are tying the hands of our public foresters. These policies 
may be making environmental law firms rich, but they are killing our 
national forests.
    The legislation before us is the first step toward restoring sound, 
rational and scientific management of our national forests. I want 
particularly to single out the work of our colleague and resident 
forester, Mr. Westerman of Arkansas, for his work in advancing reforms 
in this bill. It requires forest managers to consider the cost of no 
action alternatives; it streamlines fire and disease prevention 
programs and assures that fire-killed timber can be quickly removed to 
create both revenues and room to restore fire-damaged lands. It 
streamlines onerous environmental review processes without sacrificing 
environmental protection and provides forest managers with alternatives 
to resolve frivolous lawsuits.
    This draft seeks to provide the Forest Service with tools they can 
use immediately, building on existing authorities from the 2014 Farm 
Bill that have been successfully implemented.
    The management of the public lands is OUR responsibility. For 40 
years, we have experimented with laws that have proven disastrous to 
the health of our forests, the preservation of our wildlife, and the 
economies of our communities. THAT is on us. And THAT is about to 
change.

                                 ______
                                 

    Mr. McClintock. I now recognize the Ranking Member for 5 
minutes.

  STATEMENT OF THE HON. COLLEEN HANABUSA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF HAWAII

    Ms. Hanabusa. Thank you, Mr. Chairman. And thank you to the 
witnesses for joining us today.
    In Hawaii, we often use the word ``kuleana,'' which roughly 
translates to responsibility. Native Hawaiians and those who 
grow up in Hawaii believe that society has a kuleana to the 
natural environment. That is why our state supports efforts to 
address the very real threats of climate change.
    As we discuss the challenges of managing our national 
forests to produce better outcomes, from reducing wildfire risk 
to habitat conservation, and even increased timber harvest, 
this word should resonate with all of us. It is our kuleana and 
responsibility to ensure the future viability of our natural 
forests that the bill before us today puts in jeopardy.
    This discussion draft strikes at the core of environmental 
laws put in place by Congress to ensure sound management of 
public lands. Bedrock environmental laws like the National 
Environmental Policy Act and the Endangered Species Act ensure 
that economic development and other essential activities are 
balanced with the sound principle of conservation and 
stewardship.
    Unfortunately, the discussion draft we are considering 
today upends both of these important laws.
    First, it eliminates robust review of a wide range of 
activities across the National Forest System. NEPA makes sure 
that the public voice is heard, and this doesn't mean just 
environmental voices, but also ranchers, farmers, timber 
companies, recreation outfitters, and those Americans who 
depend on the land for their drinking water and economic 
livelihoods. NEPA helps the Forest Service consider alternate 
proposals for the benefit of local landowners.
    Second, this bill makes it easier to ignore protections put 
in place by the Endangered Species Act intended to prevent 
human-caused extinction. I would like to remind my colleagues 
that the ESA has been 99 percent effective at preventing human-
caused extinction, the purpose for which it was enacted. By 
cutting out Fish and Wildlife Service oversight of key land 
management decisions, this bill could jeopardize that success 
rate.
    When it comes to addressing forest health and dealing with 
increased disease, pestilence, and drought, the Forest Service 
already has a variety of administrative tools to expedite NEPA 
review in emergency situations to protect public safety, 
property, or important natural resources. Unfortunately, this 
discussion draft irresponsibly expands those tools in a way 
that opens the door to unsound, unchecked management decisions.
    The 170 million acres of national forests and grasslands 
supply drinking water to 60 million Americans, provide critical 
wildlife habitat, and create jobs through supporting a 
sustainable timber industry and playing an important role in 
the over $850 billion outdoor recreation economy. Making land 
management decisions that reflect and honor all of these 
multiple uses and various mandates from Congress can be a 
painstaking process. Federal land managers are tasked with the 
difficult role of managing our public lands for a wide range of 
benefits and uses. This requires striking a delicate balance 
and often requires compromise, patience, and a lot of hard 
work.
    And sometimes mistakes are made. This is why statutes like 
NEPA, which provides an opportunity for public input through 
the planning process, and, yes, even sometimes litigation, are 
very important aspects of the American democracy. Challenging 
government decisions is as American as apple pie. It is 
embedded in the founding principles of our Nation.
    Thomas Jefferson once said, ``When government fears the 
people, there is liberty. When people fear the government, 
there is tyranny.'' Thomas Jefferson was right; liberty 
requires an informed public who question and challenge 
government decisions. That is how our judicial system works. 
When we talk about streamlining NEPA or doing away with 
judicial review for timber sales, there is more at stake than 
bureaucratic reform. Liberty and justice are at stake. Our 
democratic and constitutional heritage is at stake. Nothing is 
more tyrannical than Congress taking away a citizen's right to 
challenge the government.
    Don't get me wrong, I am not advocating for a moratorium on 
timber sales or active management of national forests. But I 
believe that we should work together to enhance collaboration 
without undermining due process, and fix the wildfire budget so 
that half of the Forest Service budget does not get consumed by 
wildfire suppression every year. That is the real way to 
increase the pace and scale of restoration across the National 
Forest System.
    Thank you to all the witnesses for being here today, and I 
look forward to today's discussion. I yield back, Mr. Chair.

    [The prepared statement of Ms. Hanabusa follows:]
   Prepared Statement of the Hon. Colleen Hanabusa, Ranking Member, 
                     Subcommittee on Federal Lands
    In Hawaii, we often use the word, ``kuleana,'' which roughly 
translates to responsibility.
    Native Hawaiians and those who grew up in Hawaii believe that 
society has a `kuleana' to the natural environment. That's why our 
state supports efforts to address the very real threats of climate 
change.
    As we discuss the challenges of managing our national forests to 
produce better outcomes--from reducing wildfire risk to habitat 
conservation and even increased timber harvest--this word should 
resonate with all of us. It is our kuleana, and responsibility, to 
ensure the future viability of our national forests that the bill 
before us today puts in jeopardy.
    This discussion draft strikes at the core of environmental laws put 
in place by Congress to ensure sound management of public lands. 
Bedrock environmental laws like the National Environmental Policy Act 
and the Endangered Species Act ensure that economic development and 
other essential activities are balanced with the sound principle of 
conservation and stewardship. Unfortunately, the discussion draft we 
are considering today upends both of these important laws.
    First, it eliminates robust review of a wide range of activities 
across the National Forest System. NEPA makes sure that the public 
voice is heard. And this doesn't mean just environmental voices, but 
also ranchers, farmers, timber companies, recreation outfitters, and 
those Americans who depend on these lands for their drinking water and 
economic livelihoods. NEPA helps the Forest Service consider alternate 
proposals for the benefit of local landowners.
    Second, this bill makes it easier to ignore protections put in 
place by the Endangered Species Act intended to prevent human-caused 
extinction. I would like to remind my colleagues that the ESA has been 
99 percent-effective at preventing human-caused extinction--the purpose 
for which it was enacted. By cutting out Fish and Wildfire Service 
oversight of key land management decisions, this bill could jeopardize 
that success rate.
    When it comes to addressing forest health and dealing with 
increased disease, pestilence and drought, the Forest Service already 
has a variety of administrative tools to expedite NEPA reviews in 
emergency situations to protect public safety, property, or important 
natural resources.
    Unfortunately, this discussion draft irresponsibly expands those 
tools in a way that opens the door to unsound, unchecked management 
decisions.
    The 170 million acres of national forests and grasslands supply 
drinking water to 60 million Americans, provide critical wildlife 
habitat, and create jobs through supporting a sustainable timber 
industry and playing an important role in the over $850 billion outdoor 
recreation economy. Making land management decisions that reflect and 
honor all of these multiple uses and various mandates from Congress can 
be a painstaking process.
    Federal land managers are tasked with the difficult role of 
managing our public lands for a wide range of benefits and uses. This 
requires striking a delicate balance and often requires compromise, 
patience, and a lot of hard work.
    And sometimes mistakes are made. That is why statues like NEPA, 
which provides an opportunity for public input throughout the planning 
process, and, yes, even sometimes, litigation, are all important 
aspects of American democracy.
    Challenging government decisions is as American as apple pie. It's 
embedded in the founding principles of our Nation.
    Thomas Jefferson once said, ``When government fears the people, 
there is liberty. When the people fear the government, there is 
tyranny.'' Thomas Jefferson was right. Liberty requires an informed 
public who question and challenge government decisions. That is how our 
judicial system works.
    When we talk about streamlining NEPA or doing away with judicial 
review for timber sales, there's more at stake than bureaucratic 
reform. Liberty and justice are at stake. Our democratic and 
constitutional heritage is at stake.
    Nothing is more tyrannical than Congress taking away a citizen's 
right to challenge the government.
    Look, don't get me wrong: I am not advocating for a moratorium on 
timber sales or active management of national forests. But, I believe 
that we should work together to enhance collaboration without 
undermining due process, and fix the wildfire budget so that half the 
Forest Service budget doesn't get consumed by wildfire suppression 
every year. That is the real way to increase the pace and scale of 
restoration across the National Forest System.
    Thank you to all our witnesses for being here today. I look forward 
to today's discussion.

                                 ______
                                 

    Mr. McClintock. Thank you.
    Without objection, the Chair will now recognize Mr. 
Westerman of Arkansas for 5 minutes to present his bill.

 STATEMENT OF THE HON. BRUCE WESTERMAN, A REPRESENTATIVE FROM 
                     THE STATE OF ARKANSAS

    Mr. Westerman. Thank you, Chairman McClintock, for holding 
today's legislative hearing to discuss the Resilient Federal 
Forests Act of 2017. I greatly appreciate your leadership on 
this issue.
    Gifford Pinchot, who was the first Chief of the United 
States Forest Service, and the man who many consider to be the 
father of conservation, once said, ``Conservation means the 
wise use of the earth and its resources for the lasting good of 
men.'' He also coined the motto of the Forest Service from his 
utilitarian philosophy of the `greatest good for the greatest 
number for the long run.'
    I strongly believe that the Resilient Federal Forests Act 
of 2017 exemplifies Pinchot's version of conservation and 
stewardship. By the end of this legislative hearing, I am 
hopeful that our discussion will embrace a bold new vision for 
our national forestlands that is grounded in our rich history.
    The fact is, we have loved our trees to death, literally. 
Our Federal forests are suffering, due to overgrowth, disease, 
insect infestation, and wildfire. My bill aims to fix those 
issues by giving the Forest Service the tools it needs to 
proactively use proven, scientific, silvicultural techniques to 
better manage our Federal forestlands, as well as reduce red 
tape.
    Though the current discussion draft of the Act is similar 
to the bipartisan bill that was passed in the 114th Congress, I 
will take just a moment to talk about two of the differences.
    First, this legislation will expedite the NEPA process by 
raising the acreage covered under categorical exclusions in a 
forest management plan that both was and was not through 
collaborative processes, was proposed by resource advisory 
committees, or covered by a community wildfire protection plan. 
It is important to note that these categorical exclusions must 
meet the requirements of NEPA and the forest management plans. 
If passed into law, the Forest Service could start executing 
these CEs tomorrow.
    Second, in the new version we removed the litigation 
bonding requirements that caused trouble for several of our 
colleagues across the aisle, and we replaced it with a more 
palatable discretionary, arbitration-instead-of-litigation 
pilot program. This will allow projects with merit to move 
forward, while making those that may need a second look to be 
rethought within a reasonable time frame.
    We are seeing some changes in our climate. Drought 
conditions can place more stress on trees, making them 
susceptible to insect and disease attacks, and compound the 
intensity and occurrence of wildfires. This is a valid argument 
that my friends across the aisle have made over the last 
several decades.
    But there is more to the story. In my home state of 
Arkansas, we have seen drought conditions and more 
environmental stress on our forests, but at the same time we 
have not seen an increase in the number or intensity of forest 
fires. Although wildfire has not been as historically 
devastating in Arkansas as in farther western states, we do 
have wildfires. And if changing climate were the only factor in 
increased wildfires, surely we would see increases in the 
number and intensity of wildfires in my state.
    But, like I said, there is more to the story. On our 
private, state, and even to some extent Federal lands in 
Arkansas, we are actively managing our forests, and we have a 
thriving and growing forest economy. Sound, scientific-based 
forestry management makes the difference in many ways.
    While we have heard testimony from experts that the 
forest's total biomass is actually decreasing year after year 
in the states of California and Colorado, that have relatively 
little forest management, in my state, where we have active 
management and productive working forests, we are actually 
growing 28 tons of wood per minute, more than we are harvesting 
or losing to insects, disease, old age, or fire.
    I would like to pose a question: If we are actively 
managing our forests, and sequestering the carbon in 16 million 
tons per year of new growth in Arkansas while other states' 
forests are burning, dying, and releasing more carbon to the 
atmosphere than they are sequestering, then which state is 
actually doing more for the environment? Which states are 
practicing true conservation? Which states are doing the 
greatest good for the greatest number for the long run? It is 
those states who are managing their forests.
    If we truly want clean air, clean water, better wildlife 
habitat, more biodiversity, thriving rural communities that can 
supply renewable, American-made building products, energy, 
paper, and packaging products, then we will pass this bill as 
quickly as possible in the House and in the Senate, and the 
President will sign it into law, so that our forestry 
professionals across the U.S. Forest Service can implement it.
    If any of my friends across the aisle can present a better 
way to manage our forests, please present your ideas. Let's 
debate the ideas. And if they pass muster, let's make them part 
of the law. But we cannot continue down the same path and 
expect to leave our treasured national forests in better shape 
than we found them if we continue to do nothing.
    I yield back.
    [The prepared statement of Mr. Westerman follows:]
  Prepared Statement of the Hon. Bruce Westerman, a Representative in 
                  Congress from the State of Arkansas
    Thank you Chairman McClintock for holding today's legislative 
hearing to discuss the Resilient Federal Forests Act of 2017, I 
appreciate your leadership on this issue.
    Mr. Chairman, Gifford Pinchot, the first chief of the United States 
Forest Service, and the man who many consider to be the ``father of 
conservation'' once said, ``Conservation means the wise use of the 
earth and its resources for the lasting good of men.'' He also coined 
the motto of the Forest Service from his utilitarian philosophy of the 
`greatest good, for the greatest number, for the long run.' I strongly 
believe that the Resilient Federal Forests Act of 2017 exemplifies 
Pinchot's version of conservation and stewardship. By the end of the 
legislative hearing today, I am hopeful that our discussion will 
embrace a bold new vision for our national forest lands that is 
grounded in historical foundations.
    The fact is we have loved our trees to death, literally. Our 
Federal forests are suffering due to over growth, wildfire, disease, 
and insect infestation. My bill aims to fix the aforementioned issues 
by giving the Forest Service the tools it needs to proactively use 
proven, scientifically sound silviculture techniques to better manage 
our Federal forest lands as well as reduce red tape that cripples the 
Forest Service's ability to plan for future management and 
conservation.
    Though the current discussion draft of the Resilient Federal 
Forests Act of 2017 is similar to the bipartisan bill, H.R. 2647, that 
passed the House in the 114th Congress, I'll take just a moment to talk 
about two of the differences. First, this legislation will expedite the 
NEPA process by raising the acreage covered under categorical exclusion 
from 5 thousand acres to 10 thousand acres in a forest management plan 
that did not go through a collaborative process, and from 15 thousand 
to 30 thousand acres in a forest management plan that was developed 
through a collaborative process, proposed by a resource advisory 
committee, or covered by a community wildfire protection plan. 
Additionally, CEs for salvage operations in response to catastrophic 
events have been increased to 10 thousand acres. It's important to note 
that these categorical exclusions must meet the requirements of NEPA 
and the forest management plans. If passed into law the Forest Service 
could start executing these CEs tomorrow.
    Second, in the new version of the Resilient Federal Forests Act of 
2017, we removed the litigation bonding requirements that caused 
trouble for several of our colleagues across the aisle and replaced it 
with a more palatable discretionary arbitration-instead-of-litigation 
pilot program. This program will allow the Secretary of Agriculture to 
use arbitration as a means of dispute resolution in lieu of judicial 
review. This process will allow a quicker resolution to forest 
management challenges and will allow all stakeholders concerned to come 
to the negotiating table to voice their ideas and objectives. This will 
allow projects with merit to move forward while making those that may 
need a second look to be rethought within a reasonable time frame.
    I believe that these changes are paramount to placing our Forest 
Service in the best position possible to better manage our Federal 
forest lands. While I've talked briefly about the importance of the 
bill let me also talk for a moment about why a healthy forest is so 
important for both the environment and our economy.
    We are seeing some changes in our climate. Drought conditions can 
place more stress on trees making them more susceptible to insect and 
disease attacks and compound the intensity and occurrence of wildfires. 
This is a valid argument that my friends across the aisle have made 
over the last several decades. But there is more to the story. In my 
home state of Arkansas, we have seen drought conditions and more 
environmental stress on our forests but at the same time we have not 
seen an increase in the number or intensity of forest fires. Although 
wildfire has not been as historically devastating in Arkansas as in 
farther western states, we do have wildfires and if changing climate 
were the only factor in increased wildfires surely we would see 
increases in the number and intensity of wildfire in my state. But like 
I said, there is more to the story. On our private, state, and even to 
some extent Federal lands in Arkansas, we are actively managing our 
forests and we have a thriving and growing forest economy. Sound, 
scientific-based forestry management makes the difference in many ways. 
While we have heard testimony in this Committee from experts that the 
amount of forests total biomass is actually decreasing year after year 
in the states of California and Colorado that have relatively little 
forest management, in my state, where we have active management and 
productive working forests, we are actually growing 28 tons of wood per 
minute more than we're harvesting or losing to insects, diseases, old 
age, or fire. That equates to a net year over year gain of 16 million 
tons. I would like to pose a question, if we are actively managing our 
forests and sequestering the carbon in 16 million tons per year of new 
growth in Arkansas while other states' forests are burning, dying, and 
releasing more carbon to the atmosphere than they are sequestering, 
then which state is actually doing more for the environment? Which 
states are practicing true conservation? Which states are doing the 
greatest good for the greatest number for the long run? It's those 
states who are managing their forests.
    If we truly want clean air, clean water, better wildlife habitat, 
more biodiversity, thriving rural communities that can supply 
renewable, American-made building products, energy, paper, and packing 
products, then we will pass this bill as quickly as possible in the 
House, and the Senate, the President will sign it into law, and our 
forestry professionals across our U.S. Forest Service will implement 
it. I don't claim to have the market cornered on good ideas. If any of 
my friends across the aisle and especially in the Senate can present a 
better way to manage our forests using sound, scientific-based 
management, by all means please speak up. Please present your ideas. 
Let's debate the ideas and if they pass muster lets make them part of 
the law, but we can't continue down the same path and expect to leave 
our treasured national forests in better shape than we found them if we 
continue to do nothing.

                                 ______
                                 

    Mr. McClintock. I thank you very much. That concludes 
opening statements. We will now turn to our panel of witnesses, 
and the Chair is pleased to defer to Congresswoman Liz Cheney 
of Wyoming to introduce our first witness.
    Ms. Cheney. Thank you very much, Mr. Chairman. It is my 
pleasure to introduce Jim Neiman to the Committee. Jim is a 
friend and the third generation in his family to work in the 
forest products industry. His grandfather, A.C. Neiman, started 
a saw mill in the Black Hills in 1936, and his dad, James S. 
Neiman, is still actively involved in the family's ranch and 
timber businesses at the age of 85.
    The Neiman family owns four forest products facilities: 
Devil's Tower Forest Products in Hulett; Rushmore Forest 
Products in Hill City, South Dakota; Spearfish Forest Products 
in Spearfish, South Dakota; and Montrose Forest Products in 
Montrose, Colorado.
    Jim is a 1974 graduate of the University of Wyoming, with a 
BS degree in range management and a minor in business 
administration. He is also a past member of the Wyoming 
Occupational Health and Safety Commission, the Wyoming Economic 
Development and Stabilization Board, the Independent Forest 
Product Association, the Enhanced Oil Recovery Commission, and 
the Chairman of the School of Environmental and Natural 
Resources at the University of Wyoming. He is past president of 
the University of Wyoming Board of Trustees and a former 
director with Summit National Bank.
    From 2013 to 2015, he also served as a steering committee 
member for Wyoming Governor Matt Mead's Task Force on Forests. 
He is a founding member of the Federal Forest Resource 
Coalition, and has served as its president since 2015. He has 
also served on the Federal Reserve Bank of Kansas City's 
Economic Advisory Council since 2013.
    Jim and his wife, Christy, of 38 years have two grown 
children. Marcus works in the family companies and is also a 
member of the Army National Guard, and Sonya lives and works in 
Gillette, Wyoming.
    It is my pleasure, Mr. Chairman, to introduce Jim Neiman to 
the Committee.
    Mr. McClintock. The gentleman is recognized for 5 minutes.
    I also should explain before we start the clock. Oral 
testimony is limited to 5 minutes. Your full remarks will be 
printed in the Committee record, and the lights will help keep 
you within those guidelines. When you see the yellow light that 
means you have 1 minute remaining.

     STATEMENT OF JIM D. NEIMAN, PRESIDENT AND CEO, NEIMAN 
                  ENTERPRISES, HULETT, WYOMING

    Mr. Neiman. Thank you, Congresswoman Cheney. I really 
appreciate it. Thank you, Chairman McClintock and Ranking 
Member Hanabusa. I really appreciate it. My name is Jim Neiman. 
As Liz well described, I am the President and CEO of Neiman 
Enterprises, a third-generation, family run operation.
    Liz has already described the operations and where those 
are at. We currently have 475-plus direct employees, and that 
supports over 250 independent contract workers, on top of that.
    I am the President of the Federal Forest Resource 
Coalition, representing purchasers of Forest Service timber 
from 32 states, whose members employ well over 390,000 people 
and provide over $19 billion in payroll.
    This Committee acted on a bill similar to today's 
discussion draft in 2015. The need for reform is greater today. 
People in rural American have been waiting a long time for 
Congress to act on meaningful reforms.
    Our company is one of the last wood products companies to 
survive the significant reductions in timber harvests from 
Forest Service lands in the Central Rockies. Many other mills 
did not survive. The decision to reduce timber harvest has led 
directly to the crisis facing the national forests. Over 80 
million acres are in need of restoration, primarily due to 
overstocking after years of reduced harvests. This Committee 
has heard about the large die-off in California. We are also at 
the tail end of a significant bark beetle epidemic in the 
Central Rockies.
    More than half of the Forest Service annual budget is 
dedicated to firefighting, in large part due to the poor health 
of our forests. National forests in Pennsylvania, Michigan, and 
Louisiana also suffer from a lack of management. Timber outputs 
are less than half the amount called for in the current forest 
plans.
    The reforms embodied in the discussion draft address all 
aspects of the crisis we are facing in the Forest Service. By 
streamlining the required analysis and consultation process 
while discouraging frivolous lawsuits, the bill will help 
expand management and reduce fire danger. Critically, it also 
creates a solution to fire funding crisis. I will highlight 
just a few of the important provisions.
    The bill expands upon the successful approach of the 2014 
Farm Bill. We are particularly happy to see the expansion of 
the existing insect and disease CE in more forest types, and 
the addition of the CE for young forest types. The Forest 
Service tells us that using streamlined approaches, they have 
been able to treat twice as many acres in significantly less 
time. We are very supportive of the pilot arbitration program 
proposed in Title 3, as well as the corrections to the Good 
Neighbor Authority that have hampered the growth of that 
program.
    The state-supported fund also provides a good structure for 
states to help the Forest Service implement needed management. 
Numerous states, including South Dakota, have stepped up with 
millions of dollars to help pay directly for management of 
overstocked national forests.
    I would like to discuss the fire funding solution found in 
the bill. Fire borrowing is a real problem, and it has a real 
impact on the Forest Service's ability to achieve its goals. We 
know that many of you on this Committee have worked tirelessly 
the last few years to get the fire funding solution across the 
finish line.
    We appreciate the fiscal and jurisdictional challenges you 
face. Whatever solution you settle on, we would urge you to 
pass a bill that arrests the growth of the 10-year average. The 
rate of growth in fire suppression spending is unsustainable.
    We would also encourage the Committee to consider allowing 
unsuspended fire suppression funds to pay for future hazardous 
fuels reduction efforts. This will allow stepped-up fuels 
reduction efforts, and could create efficiency in fire 
suppression work.
    I know firsthand how difficult it has been to keep my 
family business going when the Forest Service struggles to 
manage their forests. The Congress has ample evidence that the 
no-touch management strategies adopted in the 1990s have 
failed, whether you rely on the forest for timber supplies or 
you would simply prefer to visit living, healthy forests.
    The need for reform, both in forest management and fire 
funding, has been evident for some time. We look forward to 
working with you to address both problems. Thank you much, Mr. 
Chairman.
    [The prepared statement of Mr. Neiman follows:]
     Prepared Statement of Jim D. Neiman, President & CEO, Neiman 
   Enterprises, Hulett, Wyoming; President, Federal Forest Resource 
                               Coalition
    Thank you, Chairman McClintock and Ranking Member Hanabusa. My name 
is Jim Neiman, and I am President and CEO of Neiman Enterprises. We own 
and operate four sawmills, one each in Hill City and Spearfish, SD, one 
in Hulett, WY, and one in Montrose, Colorado. These mills create 475 
direct jobs, and help support 250 contractors. Neiman Enterprises is a 
third generation, family owned company that has done business in the 
Black Hills and Bear Lodge Mountains since my grandfather--A.C. 
Neiman--opened our first mill in Hulett, WY in 1936.
    I am also President of the Federal Forest Resource Coalition, 
representing purchasers of Forest Service timber from 32 states. 
Collectively, our members employ over 390,000 people, and provide over 
$19 billion in payroll. Our members purchase, harvest, transport, and 
process National Forest and BLM timber into renewable wood, paper, and 
biomass energy products.
    Our company is one of the last wood products companies to survive 
in the Central Rockies because the Forest Service controls 90 percent 
or more of the standing timber in the areas we operate in. In the 
1990s, the Forest Service deliberately--and drastically--reduced timber 
sales across the board and in the Rockies in particular. We pride 
ourselves on have survived downturns--including the depression era when 
we started and the more recent Great Recession of 2007 to 2009. Many 
other mills--and many other mill towns--did not survive.
    The decision to reduce timber harvests has led directly to the 
crisis facing much of the National Forest System; over 80 million acres 
of National Forest land are in need of restoration, primarily due to 
overstocking after years of reduced harvests. Many of the forests in 
the Central Rockies, California and other parts of the west are 
experiencing unprecedented mortality due to a variety of factors, 
including drought, overstocking, lack of management, and climate 
change. More than half of the Forest Service annual budget is dedicated 
to fighting fires, in large part due to the poor health of many 
National Forests. The agency is carrying a deferred maintenance backlog 
of more than $5 billion. Timber outputs are less than half the amount 
called for in current forest plans.
    Many other eastern National Forests are well behind on their early 
successional management goals, limiting opportunities for sportsmen, 
birdwatchers, and other forest users. Forests in Pennsylvania, 
Michigan, and Louisiana are substantially behind on creation of early 
successional habitat.
    Forest mortality, large scale fires, declining forest health, and a 
forest management program that doesn't produce needed sawtimber or 
needed wildlife habitat; this is not a recipe for success. The 
significant threats building on our National Forests have been 
recognized by several recent Chiefs and were described as a significant 
threat by the GAO as early as 1999. In 2014, the Congressional Research 
Service found that the Forest Service does more complex NEPA 
documents--and takes longer to do them--than any other Federal agency.
    Congress has haltingly moved in the direction of reform over the 
last decade and a half. Most significantly, the Healthy Forests 
Restoration Act of 2003, followed by the 2014 Farm Bill, provided 
streamlined approaches to NEPA for certain projects on the National 
Forests. Both provided guidance to the courts on how they should 
evaluate proposed forest management projects, and guidance to the 
agency on how to comply with NEPA.
    Since the enactment of the 2014 Farm Bill, however, focus has 
shifted to protracted discussions of how to best fund fire suppression 
activities. While there is widespread recognition of the fact that our 
current fire funding model has been broken for years, Congress has yet 
to enact a long-term, sustainable solution.
    FFRC strongly supported the earlier version of the Resilient 
Federal Forests Act, which passed this chamber in 2015. Unfortunately, 
our efforts to find a path through the Senate have been unsuccessful. 
We welcome the new discussion draft as another step on the long journey 
toward enactment of a combined fire funding and forest management 
package that addresses the twin crises facing the agency.
                       forest management reforms
    We strongly support the provisions in the Discussion Draft which 
provide streamlined authority for a variety of badly needed forest 
management projects. The authority to conduct Environmental Assessments 
and Environmental Impact Statement's which evaluate only the proposed 
action and the no action alternative will greatly reduce the planning 
timelines needed to get needed projects implemented faster. Likewise, 
we appreciate the Categorical Exclusions provided by the bill. Our 
Forest Service partners tell us that using streamlined EAs, they have 
been able to treat twice as many acres in 30 percent less time than 
using traditional approaches to NEPA.
    We also appreciate the provisions which reduce the need for 
consultation with the Fish and Wildlife Service, and provide a 
streamlined approach to consulting with State Historic Preservation 
Offices. Both of these provisions recognize that the Forest Service has 
trained professionals who can recognize when projects are unlikely to 
impact critical resources like sensitive habitats and historic and 
cultural resources. The provisions here will allow needed projects to 
go through, while allowing the Fish & Wildlife Service to focus on 
higher priority recovery efforts.
    We appreciate the modest changes proposed for Stewardship 
Contracting. In addition to those proposed here, we've long advocated 
that retention of existing wood products infrastructure--including 
logging capacity and local wood using facilities--should be a co-equal 
objective for Stewardship Contracting. We understand that there may be 
some limits on how much change can be made in this bill, and we 
appreciate the opportunity to discuss the need for such changes.
    We are particularly pleased to see a new, pilot arbitration program 
proposed in Title III. The Forest Service has worked with an 
administrative objection process since 2011, which became the standard 
administrative review process for all Forest Service projects in 2014. 
Experimenting with alternative dispute resolution--particularly one 
designed to bring parties to the table with pro-active alternatives--is 
definitely in order. We hope we can work with you to retain these 
important provisions.
    The Discussion Draft also includes provisions which would allow 
states and other entities to provide support for forest management 
projects through the establishment of a State Supported Fund. Several 
states, including South Dakota and Montana, have stepped up with direct 
financial support for needed management projects on the National Forest 
System. We believe the fund created by this bill will encourage other 
partners to provide financial support by allowing the projects to repay 
receipts in to a State Supported Fund. This will allow success to build 
on itself.
    Good Neighbor Authority, expanded in the 2014 Farm Bill, has 
experienced exponential growth since, but limits on the use of the 
program for road repair and reconstruction have hampered its use. We 
appreciate the provisions in the Discussion Draft and look forward to 
working with you on them.
    Litigation is a serious problem for the Forest Service. Frequently, 
Forest Plans themselves, although they themselves do not allocate 
resources or offer real timber sales, are subject to years of 
litigation.
    Individual projects are then also subject to litigation. This can 
cause significant delays--in some regions, the Forest Service seems to 
believe that they can ``bulletproof'' timber sales by engaging in 
exhaustive NEPA analysis; this frequently just delays the eventual 
litigation, while dead and dying timber deteriorates.
    The litigation reforms in the Discussion Draft would right size 
litigation so that it isn't an all purpose way for anti-management 
groups to interact with the Forest Service. Without removing access to 
the courts for cases against specific projects, the bill limits 
dilatory litigation against Forest Plans, requires the balancing of 
harms for litigation against projects, and cuts off the gravy train of 
government funded settlements and legal fees. We believe these are 
reasonable and prudent steps, given the large impact of litigation 
against the Forest Service.
    On balance, we are strongly supportive of the targeted reforms in 
the Discussion Draft. We continue to believe that clarifying the Forest 
Service's management mandate, particularly on the roughly 24 percent of 
the National Forest System designated as suited for timber production, 
is worth congressional consideration and action. A trust mandate works 
very effectively on state forest lands, and would allow other, less 
intensive uses on the other portions of the National Forest System, 
such as wilderness and roadless areas.
    However, we strongly support the enactment of reforms such as those 
found in the Discussion Draft. They can be used--in most cases 
immediately, and in other cases after minimal rulemaking--to put needed 
projects together and begin addressing the various forest health crises 
we are experiencing on Federal forests.
                         emergency fire funding
    The Forest Service has repeatedly--and accurately--urged Congress 
to act on a solution to the current, flawed approach to paying for fire 
suppression. The current practice assumes that the Administration will 
request--and Congress will provide--fire suppression funding at the 10-
year rolling average. When these funds prove inadequate, as they do 
most years, the Forest Service is forced to ``borrow'' from non-fire 
accounts. In most years when ``fire borrowing'' has occurred, the vast 
majority of the funds come from timber related accounts, which directly 
impacts the Forest Service's ability to care for roads and ensure 
adequate reforestation.
    FFRC has long supported a fix to the fire funding problem, and we 
applaud Mr. Westerman for taking on this tough challenge. We recognize 
that there are complicated issues regarding jurisdiction and funding 
sources that Congress must grapple with, but we also stress that it is 
past time for Congress to address this universally agreed-upon 
challenge. The proposal in the Discussion Draft is a good step toward 
fixing the problem.
    The Draft allows access to Stafford Act disaster funding if and 
only if the Forest Service has requested and been funded at the 10-year 
average, and then on a fire by fire basis once the Chief has determined 
that appropriated funds will be exhausted in less than 30 days. While 
we understand fiscal concerns with other proposed fire funding 
approaches, we are concerned that the one currently proposed here will 
allow the rising costs of fire to continue eating into the Forest 
Service budget.
    In Fiscal Year 2016, fire suppression costs rose to account for 55 
percent of the Forest Service discretionary budget. By 2025, this is 
projected to increase to 67 percent of the budget. While Congress has 
continued to provide increased spending for hazardous fuels reduction 
and forest management, the growth of the 10-year average threatens to 
eventually squeeze out other priorities, such as addressing large scale 
mortality events or repairing the Forest Service's large--and growing--
infrastructure problems.
    We support a fiscally responsible fire funding solution that 
arrests the growth of the 10-year average while ending the practice of 
fire transfers. The current Discussion Draft could be improved by 
freezing the 10-year average at last year's level, with provisions to 
revisit it periodically to allow Congress to evaluate growth in the 
average. Once the 10-year average is frozen, the Discussion Draft 
approach of requiring emergency declarations could operate fairly 
seamlessly.
    We would also encourage the Committee to consider allowing 
unexpended fire suppression funds to be retained by the Forest Service 
for use in hazardous fuels reduction and forest access. Congress has 
been hard pressed to find funding for these priorities, and the 
prospect of holding on to the funds could incentivize cost savings in 
fire suppression operations.
                               conclusion
    I know firsthand how difficult it's been to keep my family run 
business going when the Forest Service struggles to manage their 
forests. The Congress has ample evidence that the ``no touch'' 
management strategies adopted in the 1990s have failed the public, 
whether you rely on the forests for timber supplies or you'd simply 
prefer to visit living, healthy forests. Poverty, unemployment, and 
population loss have for too long been the leading characteristics of 
the rural communities that surround our National Forests. The fire 
funding model adopted generations ago is in dire need of modernization.
    We appreciate the fact that this Committee and the House have acted 
on forest management and fire funding reforms in recent years. We urge 
you to resume this effort, make a few targeted changes to the 
Discussion Draft, and come to an agreement with the Senate as soon as 
possible.

                                 ______
                                 

    Mr. McClintock. Thank you very much for your testimony. The 
Chair is now pleased to recognize Mr. Granger MacDonald. He is 
the CEO of MacDonald Companies. He is here today from 
Kerrville, Texas.
    Welcome to the Committee.

STATEMENT OF GRANGER MacDONALD, CHAIRMAN, NATIONAL ASSOCIATION 
                OF HOME BUILDERS, WASHINGTON, DC

    Mr. MacDonald. Thank you, Chairman McClintock, Ranking 
Member Hanabusa, and members of the Subcommittee. Thank you for 
the opportunity to testify today. My name is Granger MacDonald. 
I am the Chief Executive Officer of the MacDonald Companies, 
and a home builder and multi-family developer from Kerrville, 
Texas. I am also the National Association of Home Builders 
Chairman of the Board.
    Mr. Chairman, I appreciate the opportunity to testify in 
strong support of Representative Westerman's Resilient Federal 
Forests Act of 2017. The common-sense legislation significantly 
reduces the red tape and prevents the U.S. Forest Service from 
better managing its timberlands, and it increases the delivery 
of domestic timber products into the market.
    Increasing the domestic lumber production for Federal 
lands, both as a means to improve housing affordability and 
address the resilience of our national forests, must be a top 
priority of Congress and the Administration. Restoring the 
health of our national forests depends critically on the 
ability of foresters to actively manage these invaluable 
resources.
    To untie the hands of our foresters, Congress must act to 
reduce the regulatory and legal burdens. Expedited 
environmental analysis review for certain forest management 
projects, as well as the arbitration in lieu of litigation--
both included in Representative Westerman's bill--are positive 
steps. They would put responsible forest management decisions 
back in the hands of professionals, instead of being tied up on 
some bureaucrat's desk or, worse still, in a courtroom.
    Representative Westerman's bill represents not only a great 
start, but a potential win-win-win that should be a no-brainer.
    Over the course of three decades, there has been a dramatic 
decline in timber production from our federally owned forests. 
The result of the decline is fewer jobs and productivity in the 
forestry sector, fewer board feet of domestically produced 
lumber entering the market, and a marked increase in the 
acreage ravaged by insects, disease, and fire.
    From the mid-1950s to the mid-1990s, timber harvests from 
National Forest Service averaged between 10 and 12 billion 
board feet per year. That number has plunged to an average of 
1.5 to 3.3 billion board feet per year in the mid-1990s, and it 
has remained significantly low ever since.
    So what happened? The unfortunate reality, as I understand 
it, is that bureaucratic red tape and litigation have conspired 
to cripple the once-thriving timber industry that relies on 
harvesting logs from Federal lands. Decades of poor land 
management have led to the declining health in our national 
forests. Evidence of this is seen in the substantial acreage 
under threat from insects and disease, as well as devastating 
fires that have laid waste to millions of acres of forestland.
    We must strike a more appropriate balance on how we manage 
our national forests. Doing so will restore the health of one 
of our great natural resources and offers the potential to 
reinvigorate the foresting industry, while improving housing 
affordability. That is the win-win-win, in my book.
    In the housing industry, lumber accounts for approximately 
$18,000 of the cost of constructing a typical single family 
home. In my business, which focuses on affordable multi-family 
rentals, I am spending about $2 million a year on lumber. And 
that number is increasing, as the price of lumber has soared 
with the housing recovery. Recent price increases are a result 
of trade disputes with Canada. We depend on imports because we 
do not produce enough lumber domestically to meet our own 
needs. This leads to higher construction costs, an issue of 
particular concern, as my business is focused on affordable 
housing.
    Affordability remains a real challenge for first-time home 
builders. NAHB analysis shows that, nationwide, an increase of 
just $1,000 in the median new home price will leave 152,903 
households priced out of the market. As the U.S. housing market 
continues to improve, demand for lumber and other building 
materials will also increase.
    Moreover, global demand for lumber is also increasing, 
especially in China. Unless additional supply can be brought 
into the market, there will be ongoing upward pressure on 
prices. We have the opportunity to take a small step in 
addressing housing affordability, as well as grow our economy 
by increasing domestic lumber supplies.
    I commend you, Chairman McClintock, for holding this 
hearing today, and thank you for the opportunity to testify. We 
look forward to working with you in advancing this important 
legislation, and expand the availability of affordable housing.
    [The prepared statement of Mr. MacDonald follows:]
   Prepared Statement of Granger MacDonald, Chief Executive Officer, 
   MacDonald Companies on behalf of the National Association of Home 
                                Builders
                              introduction
    On behalf of the more than 140,000 members of the National 
Association of Home Builders (NAHB), I appreciate the opportunity to 
testify today. My name is Granger MacDonald, and I am Chief Executive 
Officer of the MacDonald Companies in Kerrville, Texas.
    The MacDonald Companies have developed over 50 multifamily 
apartment communities and scores of workforce housing units in my time 
at the helm. On average, we spend about $2 million annually on lumber, 
and we have found lumber prices to be much more volatile than the cost 
of other products used in construction. We can see wide price swings 
over a short period of time, which has a direct effect on the 
affordability of our developments.
    The price of lumber has soared as the housing recovery gains 
momentum. For example, softwood lumber prices are up nearly 25 percent 
\1\ since January of 2016; most of this increase is directly 
attributable to the ongoing trade dispute between the United States and 
Canada over softwood lumber.
---------------------------------------------------------------------------
    \1\ Random Lengths, NAHB calculations.
---------------------------------------------------------------------------
    The rising cost of this critical component drives up the cost of 
construction and the price of a new home. The impact is of particular 
concern in the affordable housing sector, where I do my building. 
Relatively small price increases can have an immediate impact on low- 
to moderate-income renters and home buyers who are more susceptible to 
being priced out of the market.
    It is no secret that we have a rental affordability crisis in this 
country, and that there is an acute need for additional affordable 
rental options. Over 40 percent of renters are cost-burdened, which the 
Department of Housing and Urban Development defines as paying more than 
30 percent of income for rent.
    According to a 2011 study by Harvard's Joint Center for Housing 
studies, to develop new apartments with rents affordable to households 
with incomes equivalent to the full-time minimum wage, construction 
costs would have to be only 28 percent of the current average.\2\
---------------------------------------------------------------------------
    \2\ America's Rental Housing: Meeting Challenges, Building on 
Opportunities. Joint Center for Housing Studies of Harvard University, 
2011. Page 24.
---------------------------------------------------------------------------
    Clearly, the solution to the rental housing crisis involves more 
than reducing building material prices, and requires the support of 
programs like the Low Income Housing Tax Credit. But the effect of 
lumber prices on affordability must not be ignored.
    NAHB believes increasing domestic lumber production from Federal 
lands, both as a means to improve housing affordability and address the 
resilience of our national forests, must be a top priority of Congress 
and the Administration. Specifically, NAHB strongly supports 
Representative Westerman's Resilient Federal Forests Act of 2017, which 
significantly reduces red tape that prevents the U.S. Forest Service 
from better managing its timber lands and increases the delivery of 
domestic timber products into the market.
                              win-win-win
    Over the course of three decades there has been a dramatic decline 
in timber production from our federally owned forests. The result of 
this decline is fewer jobs and productivity in the forestry sector, 
fewer board feet of domestically produced lumber entering the market, 
and a marked increase in acreage ravaged by insects, disease, and fire.
    We must strike a more appropriate balance in how we manage our 
national forests system. Doing so will restore the health of one of our 
great natural resources and, offers the potential to reinvigorate the 
forestry industry while improving housing affordability. That's the 
true definition of a win-win-win.
    From the mid 1950s to the mid 1990s, timber harvests from the 
National Forest System averaged between 10 and 12 billion board feet 
(bbf) per year.\3\ That number plunged to an average of between 1.5 and 
3.3 bbf per year in the mid 1990s and has remained artificially low 
ever since.
---------------------------------------------------------------------------
    \3\ USDA Forest Service, FY 1905-2015 National Summary Cut and Sold 
Data and Graphs, January 20, 2016.
---------------------------------------------------------------------------
    So what happened? The unfortunate reality is that bureaucratic red 
tape and litigation have conspired to cripple the once-thriving timber 
industry that relies on harvesting logs from Federal lands.
    Equally troubling, decades of poor land management have led to 
declining health in our national forests. Evidence of this is seen in 
the substantial acreage under threat from insects and disease as well 
as devastating fires that have laid waste to millions of acres of 
forestland. The U.S. Forest Service 2013-2027 National Forest Disease 
and Insect Rick Map calculates 81.3 million acres of national 
forestland are at risk from insects and diseases.\4\ And since the mid-
1990s, an additional 6 million acres per year, on average, have been 
lost to catastrophic wildfires.\5\
---------------------------------------------------------------------------
    \4\ USFS, National Disease and Insect Rick Maps, https://
www.fs.fed.us/foresthealth/technology/nidrm.shtml.
    \5\ National Interagency Fire Center, Total Wildland Fires and 
Acres (1960-2015), https://www.nifc.gov/fireInfo/
fireInfo_stats_totalFires.html.
---------------------------------------------------------------------------
    Restoring the health of our national forests depends critically on 
the ability of foresters to actively manage these invaluable resources. 
To untie the hands of our foresters, Congress must act in concert with 
the Administration to reduce regulatory and legal burdens. Expedited 
environmental analysis review for certain forest management projects, 
as well as arbitration in lieu of litigation, are positive steps toward 
putting responsible forest management decisions back in the hands of 
professionals and preventing them from being tied up on some 
bureaucrat's desk or worse still, in a courtroom.
 the lumber market, the housing industry, and unlocking economic growth
    Among building materials, lumber accounts for the largest share of 
the cost of a new home. It is used for wood-frame residential 
construction and is common for interior and finishing purposes, such as 
windows and doors. NAHB research shows that, at current prices, lumber 
accounts for approximately $18,000 of the cost of constructing a 
typical single-family home. As such, lumber price increases have severe 
effects on our Nation's housing market.
    Even modest price increases in the cost of lumber can deny many 
American families an opportunity to achieve homeownership. Congress and 
the Administration can take positive steps to reduce the cost of 
housing by increasing the supply of domestically produced lumber from 
Federal lands. Reducing the price of the average single-family home 
would help unlock pent-up housing demand and add fuel to the economy.
    Unlocking the pent-up demand for housing has the potential to 
significantly grow the economy. Home construction is on the rise after 
many years of stagnation, and demand for lumber is increasing 
accordingly. For example, NAHB forecasts that single-family housing 
starts for 2017 will rise to 855,000, an increase of about 9 percent 
over 2016.
    However, this level of production is only about 65 percent of the 
1.3 million new units needed each year to meet the needs of our growing 
population and replace homes that are taken out of service. For the 
economy as a whole, Residential Fixed Investment comprised 3.5 percent 
of Gross Domestic Product in the fourth-quarter of 2016, but over the 
past 35 years, that number has averaged closer to 5 percent of GDP. 
While housing has recovered significantly from the downturn, there is 
significant potential for additional growth that has not been realized. 
In particular, the first-time home buyer market continues to lag.
    Affordability remains a real challenge for first-time buyers. A 
2016 analysis by NAHB shows that nationwide, an increase of just $1,000 
in the median new home price will leave 152,903 households priced out 
of the market.\6\
---------------------------------------------------------------------------
    \6\ http: / / www.nahb.org / en / research / housing-economics / 
housings-economic-impact /households-priced-out-by-higher-house-prices-
and-interest-rates.aspx?_ga=1.28211193. 437440231.1491967805.
---------------------------------------------------------------------------
    Likewise, reducing the price of the average new single-family home 
by $1,000 would have a significant positive effect on economic growth. 
NAHB estimates that such a reduction would generate $719.9 million in 
additional single-family construction, $363.4 million in wages and 
salaries, 6,313 full-time-equivalent (FTE) jobs,\7\ and an additional 
$243.9 million in taxes and fees for Federal, state and local 
government.
---------------------------------------------------------------------------
    \7\ Full-time equivalents represent enough work to keep one worker 
employed for a full year based on average hours worked per week in the 
relevant industry.
---------------------------------------------------------------------------
    If the $1,000 reduction (indexed to inflation) remains in effect 
for 5 years, the impact is even greater: $4.457 billion in single-
family construction, $2.250 billion in wages and salaries, 39,082 FTE 
jobs, and $1.510 billion in taxes and fees for various levels of 
government.\8\
---------------------------------------------------------------------------
    \8\ Measured in 2017 dollars.
---------------------------------------------------------------------------
    Any efforts to ease escalating price pressures, help rebuild the 
supply chain, and support a continuing housing recovery are smart 
economic policy. For these reasons, NAHB fully supports multi-use 
forest management practices for national forests and an increase in the 
supply of Federal timber products and strongly recommends that the 
Committee support the Resilient Federal Forests Act of 2017.
                               conclusion
    According to the American Forest & Paper Association, one-third of 
the United States, or approximately 751 million acres of land, is 
forested. Privately-owned forests supply 91 percent of the wood 
harvested in the United States, and U.S. state and tribal forests 
supply another 6 percent. Federal forests supply a mere 2 percent of 
the wood used by the forest products industry.
    As the U.S. housing market continues to improve, demand for lumber 
and other building materials will increase. Moreover, global demand for 
lumber is also increasing, especially in China. Unless additional 
supply can be brought into the market, there will be ongoing upward 
pressure on prices.
    We have the opportunity to take a small step in addressing housing 
affordability as well as to grow our economy by increasing domestic 
lumber supplies. Representative Westerman's Resilient Federal Forests 
Act of 2017 encourages better management of our Federal timber lands.
    At the same time, it is attentive of important environmental 
considerations. This legislation will go a long way toward better 
managing our Federal forest natural resources while also ensuring the 
continued recovery of the housing industry.
    I commend Chairman McClintock for holding this hearing today and 
taking steps to discover what barriers the Administration is facing in 
its pursuit of active forest management plans. It is important for 
Congress to take a deep look at these issues and determine what actions 
can be taken in an environmentally-friendly way.

                                 ______
                                 

    Mr. McClintock. Great, thank you for your testimony.
    The Chair next recognizes Mr. Jim Furnish. He is the former 
Deputy Chief of the United States Forest Service. He comes to 
us all the way from Silver Spring, Maryland to testify.
    Welcome to the Committee.

  STATEMENT OF JIM FURNISH, FORMER DEPUTY CHIEF, U.S. FOREST 
                SERVICE, SILVER SPRING, MARYLAND

    Mr. Furnish. I am Jim Furnish, former USDA Forest Service 
Deputy Chief for National Forest Systems. And I would like to 
thank Chairman McClintock and Ranking Member Hanabusa for the 
opportunity to testify today.
    I left the Forest Service in 2002, following a 35-year 
career that also included jobs as a district ranger and forest 
supervisor. And I served from coast to coast. I managed 
national forests and their issues in the same milieu of social 
forces and emerging science that continue to vex and frustrate 
people of good intentions, agency officials and private 
citizens alike.
    Speaking bluntly, the bill before you seeks to enact 
legislation that is an affront to well-entrenched pillars of 
our democracy and culture as a society, a society blessed with 
a legacy of stunningly rich public lands. This bill puts forth 
a false choice between commerce and our environment, and is 
certain to exacerbate long-buried conflicts that can be, should 
be, and have been effectively addressed by other laws and 
pragmatic policies and practices already in use in our public 
lands.
    I do not believe that public lands are neglected, but 
managed for different purposes than once was the case. No 
longer is there singular focus on timber production.
    In my recent memoir, ``Toward a Natural Forest,'' published 
by Oregon State University Press 2 years ago, I noted that the 
Forest Service I loved and left had refused to conscientiously 
wrestle with this profound truth. A significant portion of the 
public we had sworn to serve had rejected Forest Service 
management of their public lands, and the land itself was 
telling us of its distress. This, to me, describes the spotted 
owl crisis of the 1990s and, more broadly, the misguided effort 
to maximize timber production at the expense of other, more 
valuable resources.
    Now, rather than continue with a reading and recitation of 
my prepared remarks, I would like to speak from the heart, if I 
could, and take you back in time to the early 1990s, when the 
Siuslaw National Forest, among the most productive landscapes 
and timber in the world, was in the midst of gridlock, 
freefall, absolute chaos, and crisis. And how did we work our 
way out of that?
    The celebrated Northwest Forest Plan that was developed 
during the Clinton administration provided a blueprint, but not 
a cookbook. We took the challenge of that blueprint and crafted 
management that endures on the Siuslaw National Forest today. 
They at one time produced 350 million board feet of timber. 
That fell to basically zero in a period of a few years.
    We had to build that back. And the way we did it was, in my 
view, we let the owners back in the room. We had certain formal 
practices that involved resource advisory committees and inter-
agency committees. But the true hammering out on the anvil of 
public policy was done through ad hoc invitation to members who 
were concerned about our public forests.
    And we did, we worked things out. And it was not done 
instantaneously. It took 2 or 3 years. But I will tell you we 
did this without the benefit of this legislation that is under 
discussion today. We used the framework of laws, as well as the 
blueprint of the Northwest Forest Plan at that time to craft an 
endurable and effective approach to managing our national 
forests, primarily for restoration of the environment, not for 
timber production. And you know what? Timber production today 
on the Siuslaw National Forest is one of the leaders in the 
Pacific Northwest, although timber production is viewed as a 
by-product of environmental restoration, not a primary focus of 
action.
    I can't tell you, but I will tell you one metric that you 
should pay attention to. There has not been one single appeal 
or lawsuit of timber sales on the Siuslaw National Forest in 
over 20 years. And the reason why is people believe in what 
they are doing. And the reason they believe it is because they 
are not against logging, they want to see logging done for the 
right purposes and in the right way. The way we did this was we 
let the owners back in the room and we talked about how to do 
this in a conscientious and environmentally sensitive way. And 
they have succeeded, profoundly.
    I just want to say that asking the Forest Service to 
faithfully implement all elements of this law is to assign them 
a biased, prejudicial role unbecoming a professional. And I 
know that you have this important work before you. I hope you 
take a hard look, and don't go back to the old ways of making 
timber number one. It didn't work then, it won't work again. 
Thank you.
    [The prepared statement of Mr. Furnish follows:]
 Prepared Statement of Jim Furnish, former U.S. Forest Service Deputy 
                                 Chief
    I am Jim Furnish, former USDA Forest Service Deputy Chief for 
National Forest Systems. I'd like to thank Chairman McClintock and 
Ranking Member Hanabusa for the opportunity to testify today. I left 
the agency in 2002, following a 35-year career that also included jobs 
as district ranger and forest supervisor, and I served from coast to 
coast. I managed national forests and their issues in the same milieu 
of social forces and emerging science that continue to vex and 
frustrate people of good intentions--agency officials and private 
citizens alike.
    Speaking bluntly, the bill before you seeks to enact legislation 
that is an affront to well-entrenched pillars of our democracy and 
culture as a society; a society blessed with a legacy of stunningly 
rich public lands. This bill puts forth a false choice between commerce 
and our environment, and is certain to exacerbate long-buried conflicts 
that can be, should be, and have been effectively addressed by other 
laws and pragmatic policies and practices already in use on our public 
lands. I would hope that you see your role as legislators as improving 
circumstances, not worsening them.
    I have heard many people blame our current difficulties with 
wildfire on NEPA, ESA, and frivolous litigation, and this draft bill 
echoes these views. Such views are simplistic and incorrect. We cannot 
log our way out of this difficulty. The scale of biologic forces 
associated primarily with climate change--longer, dryer burning 
periods, increased insect mortality, and decades-long suppression 
policies--have created a landscape at higher risk. This situation 
requires focused and highly prioritized measures applied to the highest 
risk acres. And an acceptance of the reality that climate change will 
impose on us certain inevitable consequences long in the making.
    My experience literally screams that this draft bill is misguided, 
unnecessary, ultimately harmful, and just plain WRONG. This bill breeds 
mistrust.
    In my recent memoir, Toward A Natural Forest, I noted that the 
Forest Service I loved and left had refused to conscientiously wrestle 
with this profound truth: ``a significant portion of the public we'd 
sworn to serve had rejected our management of their public lands, and 
the land itself was telling us of its distress.'' This describes the 
spotted owl crisis of the 1990s, and more broadly, the misguided effort 
to maximize timber production at the expense of other more valuable 
resources.
    This bill seeks to take us back to the old days when logging 
dominated public lands. That policy proved bankrupt socially and 
legally. The bill essentially creates a series of work-arounds by 
legislating fixes to non-existent problems, unless you see national 
forest lands primarily as timber farms. As one who lived through that 
era, this bill is a prescription for the same short-sighted policies 
that caused gridlock. There has been a fundamental shift in thinking 
about what values best represent the broader public. Water quality, 
fish and wildlife, recreation, and now carbon all far exceed timber 
products in value and importance.
    As a frame of reference, I served on Oregon's Siuslaw National 
Forest as Supervisor in the wake of the spotted owl crisis from 1992-
1999, instituting management reforms aimed at forest restoration rather 
than exploitation, as chronicled in the video documentary Seeing The 
Forest. These reforms are still in place, and have proven effective and 
durable. Today the Siuslaw National Forest is one of the largest and 
most reliable providers of timber in the PNW, and also carefully 
safeguards endangered species habitat and restores salmon runs. 
Notably, the Siuslaw has not had a single timber sale appeal or lawsuit 
in over 20 years. The reason is that timber production is no longer a 
primary goal there, but a by-product of restoration activities. And I 
might add that all the above was accomplished without the provisions of 
this draft bill. Even harsh critics of logging will accept commercial 
timber activity IF the agency provides legitimate reasons to harvest 
trees while fostering ecological integrity.
    Let me give you examples. Siuslaw timber production slipped to 
essentially ZERO in 1993, and we instituted collaborative processes 
with friend and foe to dig ourselves out of the hole. I can assure you 
the issues and table stakes exceeded those on most national forests. 
Agency credibility and success rested on honesty, transparency, candor, 
information sharing, power sharing, mutual respect, and a penchant for 
listening well. We had to create new solutions that satisfied all 
parties, and the law. Failure was not an option--we could sink no 
lower.
    Collaboration succeeds when trust and respect are nourished and 
flourish. The discussion draft puts a heavy finger on one side of the 
scale--the side predicated on logging. I guarantee you this provision 
dooms success. Those citizens most needed to ensure successful 
deliberations--those you consider intractable foes of logging--will 
either refuse to participate or walk away, requiring the application of 
numerous other band-aids to keep logging proposals from foundering. The 
success we enjoyed on the Siuslaw NF was based on the assumption that 
everyone was reasonable and would work toward solutions that truly 
benefited the land and resources. This bill nullifies that presumption 
by bullying those with viewpoints perceived as anti-logging. Asking the 
Forest Service to faithfully implement all elements of this law is to 
assign them a biased, prejudicial role unbecoming a professional.
    Let's look at the bill's approach to the use of categorical 
exclusions, or CEs. Increasing the threshold to 10,000 acres is 
excessive and uncalled for. This is the equivalent of 15 square miles!! 
Projects of such massive extent were never intended by NEPA procedures 
to be excluded from public participation, analysis and review. This 
provision can only be seen as intended to avoid scrutiny and due 
process. Yet another provision increases the threshold to 30,000 acres 
if the project is supported by collaboration. But NEPA is predicated on 
analyzing and documenting environmental effects, not whether social 
processes are invoked.
    Title II accelerates the review timelines for salvage. I knew a 
time when virtually all salvage was harvested, yet we now know that the 
role of dead trees is very complex and deserving of the most careful 
analysis. Haste and delay are both uncalled for in pursuit of consensus 
solutions.
    Another collaboration provision requires analysis of only two 
alternatives--action and no action--thus stipulating that collaboration 
must conclude with only one option and arbitrarily assigning other 
meritorious alternatives to the trash can. NEPA contains important 
learning functions that necessitate consideration of all reasonable 
alternatives; a premise strongly supported by case law. Such 
precautionary principles are intended to conserve resources and combat 
smug certainty.
    This unstable house of cards is built on progressively biased 
strategies, all directed at making logging essentially mandatory rather 
than discretionary. The approach is in essence the same tragic mistake 
that created the spotted owl crisis; elevating logging over other uses 
and values. Add one last insult--deny due process for litigation and 
recovery of legal expenses. You are creating a system of haves and have 
nots . . . again.
    Regrettably, the have nots will include species protected by ESA. 
Rather than viewing ESA as an obstacle, ESA should be seen as a 
fundamental responsibility of public land management. Case studies 
abound throughout the country illustrating recovery of species in peril 
as well as how thoughtful forest management, done properly, supports 
recovery.
    I am also deeply distressed that this bill ignores the major 
problem confronting the Forest Service today--the escalating cost of 
fire suppression and its consequence of diminishing all other resource 
management. Your legislative proposals aimed at resolving this long-
standing impasse enjoy broad bipartisan support, including mine, and I 
suspect my fellow witnesses support them also. If you truly seek to 
address the major problem standing in the way of applying sound science 
to create effective solutions, pass the fire funding bill. And leave 
this bill on the shelf where it belongs.

                                 ______
                                 

    Mr. McClintock. Thank you for your testimony.
    Our final witness is Mr. Tim Freeman. He is Commissioner 
for the Douglas County Board of Commissioners. He is here today 
from Roseburg, Oregon to testify.
    Welcome.

STATEMENT OF TIM FREEMAN, COMMISSIONER, DOUGLAS COUNTY BOARD OF 
                COMMISSIONERS, ROSEBURG, OREGON

    Mr. Freeman. ``Water, water everywhere, and all the boards 
did shrink. Water, water everywhere, nor any drop to drink.''
    Good morning, Chairman McClintock, Vice Chairman Westerman, 
Ranking Member Hanabusa, and members of the Subcommittee. Thank 
you so much for inviting me here to testify.
    For the record, my name is Tim Freeman, and I am a County 
Commissioner from Douglas County in western Oregon, the most 
productive timber-growing region in the United States, where we 
are surrounded by millions upon millions of acres of Federal 
timber that, unfortunately, is mostly withdrawn from even the 
most benign economic utilization.
    As with the ``Ancient Mariner,'' Samuel Taylor Coleridge, 
the resource we so desperately need is all around us, yet we 
are prevented by Federal policies from using it to help fulfill 
our communities' needs. I am here today as the President of the 
Association of O&C Counties. Since 1925, the Association has 
represented counties in western Oregon that have a statutory 
interest in 2.1 million acres managed by the BLM, pursuant to 
the O&C Act of 1937.
    We also have a statutory financial interest in about a half 
million acres of O&C lands that are managed by the Forest 
Service. The O&C counties also have within their boundaries 
many millions of acres of national forest. We are quite 
literally surrounded by Federal timberlands.
    We, therefore, very much appreciate this Committee's 
interest in streamlining some of the aspects of Federal forest 
management. We are critically in need of forest management 
reform legislation that addresses Federal forest management 
practices to get more work done on the ground, to improve the 
health of our forests, and to improve the economic 
opportunities for our forest communities.
    Proper management can also produce much-needed revenue for 
the U.S. Treasury. I would like to remind the Committee that 
for many years the Federal timber and forestlands produced more 
revenue than what it cost to manage them. Only government can 
take this great asset and turn it into a liability. As you 
know, the O&C lands have a very unique history, having been 
granted in the late 1800s in exchange for construction of a 
railroad, but then taken back to Federal ownership in 1916, due 
to the railroad company's violation of the terms of the grant. 
For a complete history of this, we have a wonderful website. 
Please go to the O&C website.
    One way to look at this is that you, as the Federal 
Government, and us, as the counties, are in a partnership, and 
the BLM is our land manager. When reasonable management occurs, 
we both see the benefit. The relationship between the Federal 
Government and the counties worked very well until the early 
1990s.
    Beginning in 1990, becoming progressively worse since, 
Federal policies have become so tangled, and the regulatory 
agencies have usurped much of the management authority so that 
the Forest Service and the BLM are no longer able to manage 
Federal forests and timberlands as they should. It appears that 
the BLM and the Forest Service are no longer even willing to 
try. Fearful of litigation and criticism, the agencies have 
taken the path of least resistance.
    O&C counties and many other counties in the West are 
reeling from two decades of Federal mismanagement on the O&C 
and Forest Service lands. Because of this mismanagement, there 
has been a drastic reduction in revenues from shared timber 
harvestry seats. Counties struggle to provide even the minimal-
accepted levels of public service.
    As an example, under the new O&C plans, if fully 
implemented, only about 19 percent of historic payments will be 
produced. Based on BLM's past performance, the Association of 
O&C Counties is confident that the BLM plans will never be 
fully implemented, and the shared timber receipts will resemble 
those of recent years, which are only about 8 percent of 
historical averages.
    In rural timber counties, commissions are faced with 
closing libraries, jails, mental health, public health, 
sheriff's patrols, hundreds of employees have been laid off, 
and services have been curtailed. Unfortunately, there is more 
bad news to come, and it does not have to be this way.
    In 1937, the inventory on the O&C lands was approximately 
50 billion board feet. After 80 years of management, there was 
approximately 50 billion board feet harvested, and today there 
is 73 billion board feet of timber. This goes to show that 
sustained yield management works.
    We are very pleased that this Committee is giving attention 
in the Resilient Federal Forests Act of 2017 to some of these 
issues. We stand ready to assist in developing and improving 
legislation that recognizes the necessity of resuming 
activities to manage in ways that contribute to the economic 
health of local communities and reverse Federal policies that 
are killing jobs and communities. We desperately need your 
help.
    Thank you, and I would be happy to answer any questions.
    [The prepared statement of Mr. Freeman follows:]
Prepared Statement of Commissioner Tim Freeman, President, Association 
                            of O&C Counties
    With apologies to Samuel Taylor Coleridge, I quote the most famous 
stanza from his most famous poem:

                                        ``Water, water, everywhere,
                                     And all the boards did shrink;
                                          Water, water, everywhere,
                                           Nor any drop to drink.''

    I am Commissioner Tim Freeman and I am from Douglas County in 
western Oregon, the most productive timber-growing region of the United 
States, where we are surrounded by millions upon millions of acres of 
Federal timber that, unfortunately, is mostly withdrawn from even the 
most benign economic utilization. As with the Ancient Mariner, the 
resource we desperately need is all around us, yet we are prevented by 
Federal policies from using it to help fulfill our communities' needs.
    I am here today as President of the Association of O&C Counties 
(AOCC). Since 1925 AOCC has represented counties in western Oregon that 
have a statutory interest in 2.1 million acres managed by the BLM 
pursuant to the O&C Act of 1937, 43 U.S.C. 1181a-f. Similarly, the O&C 
Counties have a statutory financial interest in about 500,000 acres of 
O&C Lands that are managed by the Forest Service. And although I am not 
here today specifically to address National Forests, the O&C Counties 
also have within their boundaries many millions of acres of National 
Forests.
    We are, quite literally, surrounded by Federal timber lands. We 
therefore appreciate very much this Committee's interest in 
streamlining some aspects of Federal forest management. We are 
critically in need of forest management reform legislation that 
addresses Federal forest management practices to get more work done on 
the ground, to improve the health of our forests and to provide 
economic opportunity for our forest communities. Proper management can 
also produce much-needed revenue for the U.S. Treasury.
    The O&C Lands have a unique history, having been granted in the 
late 1800s in exchange for construction of a railroad, but then taken 
back into Federal ownership in 1916 due to the railroad company's 
violations of the terms of the grant. For a complete discussion of the 
fascinating history of the O&C Lands, visit the history section of the 
AOCC website: http://www.oandc.org/o-c-lands/history-of-o-c-lands/.

    In 1937, the O&C Lands were designated by Congress for sustained-
yield timber production. All of the O&C Lands classified as timberlands

        ``. . . shall be managed . . . for permanent forest production, 
        and the timber thereon shall be sold, cut and removed in 
        conformity with the principal [sic] of sustained yield for the 
        purpose of providing a permanent source of timber supply, 
        protecting watersheds, regulating stream flow, and contributing 
        to the economic stability of local communities and industries, 
        and providing recreational facilities . . ..'' 43 U.S.C. 
        Sec. 1181a.

    The O&C Act goes on to require that ``timber from said lands in an 
amount not less than one-half billion feet board measure, or not less 
than the annual sustained-yield capacity when the same has been 
determined and declared, shall be sold annually . . ..'' 43 U.S.C. 
Sec. 1181a. The O&C Lands have a dominant use--timber production--that 
has been recognized many times by the courts. See, for example, 
Headwaters, Inc. v. BLM, Medford Dist., 914 F2d 1174, 1183-84 (9th Cir. 
1990). For more than 50 years following the O&C Act, the O&C Lands were 
managed as Congress directed--for sustained yield timber production--
and our communities thrived as a result. For many decades the O&C Lands 
supported local communities and were at the same time a source of 
revenue for the Federal Government.
    And yet currently, the vast majority of the O&C timberlands, about 
80 percent, are withdrawn from sustained yield timber production. How 
can this be?
    Beginning in the 1990s and becoming progressively worse since, 
Federal policies have become so tangled and the regulatory agencies 
have usurped so much of the management authority that the BLM is no 
longer able to manage the O&C Lands as it should. It appears the BLM is 
no longer willing to even try. Fearful of litigation and criticism, the 
BLM has taken the path of least resistance.
    The most recent example of the avoidance principle on full display 
is the resource management plan (RMP) adopted by the BLM for the O&C 
Lands in 2016. The land use allocations in the RMP are (in the opinion 
of AOCC) illegal, in that the majority of the O&C lands (about 80 
percent) are allocated to reserves in which sustained yield management 
is not allowed. Some of the driving policies are internal to the BLM, 
but the inspiration for the management restrictions are largely 
traceable to other agencies. The BLM's ability to utilize broad 
flexibility under principles of sustained yield forestry is primarily 
constrained by policies of the U.S. Fish & Wildlife Service.
    Just prior to the most recent BLM planning process the U.S. Fish & 
Wildlife Service issued a recovery plan for the northern spotted owl 
that precludes sustained yield management for substantially all older, 
more structurally complex forest as a blanket restriction across three 
states. This inflexible policy is supposed to be voluntary for the land 
management agencies, but is being treated as though it has the force of 
law. In addition, ``critical habitat'' was designated for the marbled 
murrelet and northern spotted owl, covering 57 percent of the BLM 
forest in western Oregon. This designation of critical habitat included 
over a half million acres of younger forest, which are not currently 
habitat, but as these forest age they too will have constraints placed 
on sustained yield management.
    These policies and designations were developed largely without 
consideration of ways sustained yield management could provide habitat 
that would aide recovery of the northern spotted owl and marbled 
murrelet. There was almost no consideration by the U.S. Fish & Wildlife 
Service of forestry techniques that would permit simultaneous 
achievement of sustainable economic and environmental objectives. The 
BLM took the U.S. Fish and Wildlife Service policies as binding, and in 
its own planning process the BLM also gave little consideration to 
forestry methods that would permit simultaneous achievement of economic 
and environmental objectives. The door was shut to such consideration 
by the BLM's up-front designation of reserves that precluded analysis 
of sustained yield techniques within those reserves.
    There are numerous kinds of ``reserve'' designations under the 
BLM's RMP, but the story of the ``large block'' reserves is perhaps the 
most troubling. The BLM in its planning process designated over a 
million acres of large block reserves in which sustained yield 
management is precluded. The boundaries of the BLM's million-acre 
large-block reserves do not coincide with the U.S. Fish & Wildlife 
Service's designated critical habitat. The BLM's large block reserves 
preclude sustained yield management on approximately 250,000 additional 
acres that the U.S. Fish & Wildlife Service did not think was critical 
habitat.
    Conversely, 40 percent of the lands that are allocated by the BLM 
for sustained-yield management are designated as critical habitat by 
the U.S. Fish & Wildlife Service--meaning that the BLM's planned 
sustained-yield management activities within those areas will almost 
certainly be substantially curtailed. The BLM RMP pretends that timber 
harvests will occur within the designated critical habitat, but any 
experienced observer well knows that they will be repeatedly litigated 
and ultimately avoided by the agency.
    On top of all this, at the end of the RMP process the BLM agreed to 
a U.S. Fish & Wildlife demand for a ``No Take'' provision until more is 
known about barred owl interactions with the spotted owl. The No Take 
policy means that timber management is precluded on 30-40 percent of 
the lands allocated by the BLM for sustained yield timber harvests, 
which could potentially reduce by half the BLM's declared sustainable 
harvest level.
    The combination of these restrictions and impediments make it clear 
to AOCC that the BLM's RMP--which is grossly inadequate to begin with--
will never be implemented as advertised. The regulatory actions by the 
U.S. Fish & Wildlife and the BLM plans are not effectively coordinated 
nor do they recognize the unique sustained yield mandate of the O&C 
Lands to contribute to the support of rural communities. The counties 
and the public had limited opportunity to participate in the up-front 
decisions that severely limited the management strategies considered 
under NEPA in the recent BLM planning process. These Federal Government 
actions fail to address the human species and the well-being of rural 
communities, which is directly tied to the management of the O&C 
forests.
    Numerous judicial decisions have made clear that O&C Lands are 
dedicated to sustained yield timber production in order to generate 
revenue for the O&C Counties and to provide an economic base for local 
industries and communities. Pursuant to 43 U.S.C. 1181f, the O&C 
Counties share 50 percent of the total revenues generated from timber 
harvests on O&C Lands. Counties depend on shared timber receipts to pay 
for essential public services of all kinds, from public safety such as 
sheriff patrols and jails to public health programs and libraries. When 
O&C lands are withdrawn from sustained yield management, there is a 
direct financial loss to county governments and a loss of services to 
local citizens and their communities.
    The O&C Counties are reeling from two decades of Federal 
mismanagement of the O&C lands and a drastic reduction in revenues from 
shared timber harvest receipts. Counties struggle to provide even 
minimally acceptable levels of public services. Under the new BLM 
plans, if ever fully implemented, payments would be only 19 percent of 
historic payments. Based on the BLM's past performance, AOCC is 
confident these BLM plans will never be fully implemented and shared 
timber receipts will resemble those of the recent past that are only 
about 8 percent of the historic payment average. In the rural O&C 
Counties commissioners are faced with closure of libraries, jails, and 
elimination of sheriff patrols. Hundreds of employees have been laid 
off in recent years, services have been curtailed, and whole 
departments shuttered. Unfortunately, there is more bad news to come.
    Perhaps worse than loss of public services has been the loss of 
jobs in the private sector. The lack of adequate timber supply has 
caused many of our mills to close and forced thousands of people out of 
work. Some mills in our area even have to import timber from Canada in 
order to have the raw materials they need for operations. Living in a 
sea of timber, we nevertheless must buy and transport logs from Canada, 
a sad irony that makes local residents question their government at 
every level.
    We are very pleased that this Committee is giving attention in the 
Resilient Federal Forests Act of 2017 to some of the issues that hinder 
proper management. We stand ready to assist in developing and improving 
legislation that recognizes the necessity of resuming active management 
in ways that contribute to the economic health of local communities and 
reverses Federal policies that are killing forest jobs.
    Through sustained yield management, the O&C Lands can contribute to 
the economy of local communities and county governments and 
simultaneously provide a wide range of forest values such as 
recreation, wildlife habitats, clean water, wood products, and carbon 
storage. The O&C Lands can once again be a performing asset that 
produces revenue to help balance the Federal budget. The benefits of 
proper management accrue both locally and nationally. AOCC wishes to be 
a partner in your efforts to correct some of the Federal policies that 
interfere with these objectives.
    In the coming weeks we will provide comments regarding specific 
titles of the draft bill to Committee staff. The bill as a whole is of 
major importance to us, but AOCC is likely to give extra attention to 
sections dealing with the Stewardship Contacting, the Secure Rural 
Schools and Community Self-Determination Act and, of course, anything 
having to do specifically with the O&C Lands.
    Thank you for the opportunity to comment on these important issues.

                                 ______
                                 

    Mr. McClintock. Thank you very much for your testimony. And 
we will be happy to provide them for you, beginning right now.
    Mr. Neiman, we have received extensive testimony that 
private lands are in much better condition, overall, than the 
public lands. I have seen it myself. You can actually see the 
property line between private lands and public lands. On the 
private land side, there are green, healthy, thriving forests. 
On the public lands, there are dead and dying trees and scrub 
brush. And yet we are told this is because of climate change. 
What is your observation?
    Mr. Neiman. We can show you many examples just like that in 
the Black Hills, not only between private and Forest Service, 
but between the Custer State Park in South Dakota----
    Mr. McClintock. How is it that climate change can affect 
one property completely different than another property next to 
it?
    Mr. Neiman. We can show you a picture of the wilderness in 
the Black Hills, and it goes right down the border. It is all 
dead on the wilderness side. And the Custer State Park----
    Mr. McClintock. I have seen it time and again in my own 
district. It is hard to believe that the climate can be so 
precise as to know exactly the property line between the 
private and the public lands. What do you think is causing that 
difference?
    Mr. Neiman. It is clearly over-aged, over-stocked forest.
    Mr. McClintock. The president of the California Forestry 
Association recently speculated before this Subcommittee that 
the timber die-off in the Sierra has now become so severe that 
he believes the forest may be becoming a net carbon emitter. 
What is your observation?
    Mr. Neiman. Clearly, old growth forests do get to that 
point after they get so old. They just get to a stagnant state. 
That is why part of this bill is so important to create some of 
the young, resilient forest types. Like I talked about in my 
testimony earlier, when you look at Louisiana and some of the 
states back East, the forests are getting old, and they are not 
sequestering as much carbon as they would if they were younger 
and more resilient.
    Mr. McClintock. Well, that is exactly right. And that gets 
me to my next point, which is if we are facing warmer weather, 
and if CO<INF>2</INF> is the culprit, doesn't that point to a 
greater need to keep the tree density under control, for 
example, and to match that tree density to the ability of the 
land to support it?
    Mr. Neiman. If you have warmer temperatures, you probably 
have a longer growing season, which could contribute to more 
growth, annual, which means you might need to harvest more to 
control that inventory.
    Mr. McClintock. And if you have less----
    Mr. Neiman. And if you have a longer----
    Mr. McClintock [continuing]. Precipitation, obviously, you 
also need to control the tree density to assure that the tree 
density matches the ability of the land to support it in that 
new condition.
    Mr. Neiman. Yes. If you look at the climate change 
scenario, and you have drought conditions--you heard the 
testimony earlier, my degree is in range management--your 
carrying capacity is not going to be as high.
    Mr. McClintock. As you pointed out, a young growing tree 
absorbs far more carbon dioxide than a fully grown older tree. 
Correct?
    Mr. Neiman. Correct, definitely.
    Mr. McClintock. Well, doesn't that suggest that maybe we 
ought to be harvesting some of the old trees, so that there is 
room for young trees to grow, under this theory?
    Mr. Neiman. Clearly, in Ponderosa pine, you want a mixture 
of all. You don't want a total old growth. In many cases, we 
are required to have 5 percent old growth, and we try to meet 
that--so I support that scenario.
    Mr. McClintock. Right, as do I. Does it suggest also that 
perhaps we should expedite the salvage of fire-killed timber 
while it still has some value and before it begins to decay and 
release enormous quantities of CO<INF>2</INF> into the 
atmosphere?
    Mr. Neiman. Ponderosa pine, you have about 10 months that 
you can salvage that wood. So, you look at a normal NEPA 
process that might take 1\1/2\ to 2 years, you are too late.
    Mr. McClintock. Well, we have entire tracts in the Sierra 
where there has been virtually no salvage. The result is that 
these trees are decaying and releasing enormous amounts of 
carbon dioxide into the air. At the same time, scrub brush is 
growing up under them. They topple on top of that, and then you 
have dry timber on top of dry scrub brush, which is a perfect 
fire stack for a second-generation fire.
    Do our policies promote any of those global warming-related 
policies?
    Mr. Neiman. Well, the original Farm Bill tried to focus on 
that, but it clearly needs to be enhanced.
    I just want to point out one other issue. We talk about 
CO<INF>2</INF>. When you have, in some cases in Wyoming, 10 
foot of downed timber, those trees, when they die and they 
start rotting, it turns into methane gas. That is 22 times more 
harmful than the CO<INF>2</INF>. So, you have a couple issues 
here you are dealing with.
    Mr. McClintock. There seems to be a complete disconnect 
between the global warming enthusiasts and the policies that 
they are recommending to us.
    Mr. Neiman. Correct.
    Mr. McClintock. Thank you. I recognize the Ranking Member.
    Ms. Hanabusa. Thank you, Mr. Chair.
    Mr. Furnish, thank you for your 35 years of service. And we 
are going to call upon that in, hopefully, your responses to my 
questions.
    Mr. Furnish. Thank you.
    Ms. Hanabusa. On numerous occasions, you will always hear 
that it is the environmental laws like NEPA and Endangered 
Species Act combined with the citizen review of project 
planning and litigation that are responsible for, basically, 
the catastrophic wildfires that we are experiencing throughout 
the country.
    What I would like to find out from you is, you say in your 
testimony that the bill puts forth a false choice between 
commerce and our environment. I would like to understand what 
you meant by that statement.
    Mr. Furnish. I was trying to speak to the issue that--the 
notion you could have one but not the other. I would argue that 
the Forest Service that I grew up in, when I started in the 
1960s, that went until, really, the spotted owl crisis, which I 
argue changed everything in the early 1990s, was based on the 
primary function of the national forests being a source of 
commercial material. This came at the expense of numerous other 
resources like water, wildlife, and it was litigation, 
primarily, over wildlife--the spotted owl in particular, and a 
number of other associated species--that brought this gridlock.
    What I was trying to articulate with the Siuslaw experience 
is, instead of having one or the other, we strove to have both. 
Less timber, to be sure, but it was done in a way that was 
truly sustainable and worked in concert with the needs of 
wildlife habitat.
    Ms. Hanabusa. We have all heard about the spotted owl 
crisis of the 1990s. You, obviously, were part of that.
    Mr. Furnish. Yes.
    Ms. Hanabusa. So, what do you think caused that situation, 
that you would call it the spotted owl crisis of the 1990s?
    Mr. Furnish. I believe it was the result of a very 
exuberant obsession with timber production on public lands. 
There was more timber harvested on public lands in 1989 than 
ever in its history, even after at least a decade of intense 
litigation. This really came to a head with the spotted owl 
situation, where a Federal judge found that the Forest Service 
had willfully violated laws in its pursuit of timber.
    The crash came. Then it had to begin to be rebuilt from 
scratch, which is what we tried to do on the Siuslaw. And I 
would point out that, rather than pursuing one or the other--in 
other words, the total exclusion of logging--what we tried to 
do was build a model that had some modest forms of logging that 
were intended to work in concert with wildlife habitat needs 
and clean water, salmon runs, these type of things, in a way 
that was truly durable and sustainable. And we succeeded.
    Ms. Hanabusa. You also hear statements that environmental 
safeguards, primarily NEPA and ESA, which are designed to 
protect the endangered species and, as you just mentioned, the 
water, as well as the salmon and even the owls, that somehow 
they increase the risk of wildfires.
    First, have you heard that type of a connection? And 
second, what does that mean to you, when you hear that?
    Mr. Furnish. Yes, I have heard that. I tend to reject that 
view as being too simplistic and incorrect. I think it is a 
much more complicated situation than even I can understand or, 
hopefully, articulate.
    But we have had wildfires with us for millennia. We will 
continue to do so. I do believe in climate change. I believe 
that the firefighter is one of the best testimonials to climate 
change. They say if you don't believe it, talk to any 
firefighter and they will tell you climate change is with us. 
It is real, all the phenomena that we are experiencing with 
longer fire seasons, drought, all these kinds of things are 
evidence of this.
    But I don't think we are going to be able to log our way 
out of this problem. It is simply too enormous, too costly. It 
is going to require highly prioritized and rifled approaches to 
deal with the risks where they are greatest. But the chickens 
are coming home to roost, and we are going to be dealing with 
this for decades to come.
    Ms. Hanabusa. When you say we are going to be dealing with 
this, what do you mean?
    Mr. Furnish. I mean the elevated fire risk and 
consequences. But I would quickly add that, although we look at 
a fire of, say, 100,000 acres, it is important to note that 
almost throughout history this 100,000 acres that burns, the 
vast majority of that burns in a light to moderate fire 
activity. There is a portion that burns severely. These are the 
acres we would be most concerned about.
    Ms. Hanabusa. Thank you. Mr. Chair, I yield back.
    Mr. McClintock. Thank you. The Chair now recognizes Mr. 
Westerman for 5 minutes.
    Mr. Westerman. Thank you, Mr. Chairman. Thank you to the 
witnesses for coming today to have this important discussion.
    Mr. MacDonald, you talked about the home construction in 
the United States. I believe you said the average cost of 
lumber in a home is $18,000, but that is really a small 
percentage of the total cost of building a home. And the reason 
I point that out is because I think we sometimes forget the 
overall economic impact to our country when home building is 
strong, because you have appliances, you have plumbing, 
electrical, all those things that go into building a home. And 
it creates jobs, as well.
    In the rural communities in my district, we are not seeing 
too many homes being built, and we are seeing people 
struggling. And on top of that, many of these communities are 
surrounded by national forests, where they have seen a decrease 
in funding for their schools, a decrease in funding for their 
emergency services, and just overall tough economic times.
    I had submitted for the record in a previous hearing a 
paper authored by Chad Oliver, a professor at Yale, who did a 
big study on the carbon benefits of good forest management. And 
the conclusion was that active forest management is better for 
the environment than not managing the forest. So, when I hear 
testimony that there is a false choice between commerce and our 
environment, I take strong exception to that.
    As the need for housing continues to grow, what are the 
alternatives if you don't have a lumber supply or a wood 
product supply to build those houses? What kind of materials do 
you use if you don't have lumber?
    Mr. MacDonald. Well, obviously, there are alternatives, 
such as metals and all that, metal studs, but that creates a 
whole other set of environmental problems.
    Typically, we will be substituting domestic lumber for 
imported lumber. This is lumber that comes from Canada and 
other parts of the world that, only because of the 
transportation issue, continues to raise the price of housing. 
Sweden and Germany are a perfect example of countries that are 
much more socially liberal than the United States in how they 
carry their business, and they manage their forests, and they 
manage them very well, and they continue logging operations 
year in, year out, which goes to the benefit of the housing 
industry in Europe, as a whole, and, likewise, in Canada.
    And, as I stated, just a $1,000 change in the price of a 
home puts over 150,000 people out of being able to have housing 
affordability.
    Mr. Westerman. Seems like I have heard that for every home 
that is built there are two or three jobs created for that?
    Mr. MacDonald. There are four permanent jobs created with 
every home that is built, yes, sir. For example, the National 
Association of Home Builders has 140,000 members that employs 
almost 12 million Americans.
    Mr. Westerman. We are seeing new products like cross-
laminated timber that are going into the high-rise structures 
that sequester even more carbon and offer more opportunities. I 
have stated before that the forests need industry much worse 
than industry needs forests today.
    That is evident in my state, where we have a very active 
forest management, we have a very active forest products 
industry. We are a sequester of carbon, it is 16 million tons a 
year. As I said in my opening testimony, that is 28 tons every 
minute, every hour of every day. During the 5 minutes that I 
have had to make this presentation, the forests in Arkansas 
have sequestered over 100 tons--or there are over 100 tons of 
new growth.
    I just cannot see a downside to us managing our national 
forests and keeping them healthy. We don't have to make timber 
the number-one goal of forest management, but it does not hurt 
if the country prospers economically while we are doing good 
for the forests. I hope at some point we can understand that, 
and that Congress can act, and that we can move this 
legislation and other common-sense ideas forward. I yield back.
    Mr. McClintock. Thank you.
    Mr. Panetta.
    Mr. Panetta. Thank you, Mr. Chairman. I appreciate that. 
And, of course, to the four gentlemen who are here, the 
witnesses, thank you very much for coming, preparing, and 
giving your testimony. I appreciate that.
    You, obviously, are the experts on this, and you know more 
than me about this. I will admit that right up front. However, 
I come from an area on the central coast of California that, 
unfortunately, suffered the most expensive wildfire in our 
Nation's history this last year, the Soberanes Fire. It was so 
big and so vast that it actually got to a point where my two 
daughters and I got to watch some of our hills burning around 
us. And looking out our living room window, you could see the 
backfires that were lit in order to contain it.
    So, clearly, it is an issue, not just in your areas, in 
Arkansas, and, of course, in California, we know that, but 
throughout our Nation. So, I appreciate you coming here and 
talking about it.
    Mr. Westerman, thank you for your bill and what you are 
doing. But obviously, there are some differences that we can 
hopefully work out.
    Mr. Neiman, you talked about the Farm Bill, you mentioned 
it briefly, how it tried to focus on, I think, the balance 
between old growth and new growth. Is that correct? What were 
you referring to when you mentioned the Farm Bill?
    Mr. Neiman. Part of what is in this bill focuses on--you 
have some forests back East that have been no harvesting for a 
number of years, and you have some out West with no harvesting. 
And you have a fair amount of older-type forests, but you do 
not have any young, successional forests in some of those 
forests. The young successional forest is the next new 
generation, just like babies. It is important to have a mixture 
of those. So, that is partly what I was referring to in the 
mixture.
    Mr. Panetta. And the Farm Bill, it tried to do what?
    Mr. Neiman. The Farm Bill talks about young successional 
forests, and helping provide for that.
    Mr. Panetta. OK, great, thank you.
    Mr. Furnish, thank you for your experience, obviously, and 
your testimony today. You talked about an area that I admit and 
I apologize that I had not heard of, the Siuslaw--is that how 
you pronounce it?
    Mr. Furnish. Shame on you.
    Mr. Panetta. Yes.
    Mr. Furnish. Yes, correct, Siuslaw.
    Mr. Panetta. And where, exactly, is that located?
    Mr. Furnish. The central coast of Oregon.
    Mr. Panetta. OK. And how big is it?
    Mr. Furnish. About 1,000 square miles.
    Mr. Panetta. OK, all right. You talked about, obviously, 
and a lot of your testimony talks about a lot of the efforts 
that went into managing that. And basically, it sounded like 
you had all sides at the table----
    Mr. Furnish. Absolutely.
    Mr. Panetta [continuing]. In order to manage that. What are 
some of the efforts that were done, and--I mean, obviously, it 
is a complicated process when you do that. But, clearly, it is 
worth it when you have everybody at the table to work out their 
differences, correct?
    Mr. Furnish. Yes. I would say that I could line up about 10 
people across the table from me today that were former 
entrenched enemies of me and the Forest Service. Today, I 
consider them close friends. And it was because we hammered out 
our differences in a very principled, respectful way. When the 
coin of the realm were things like honesty, transparency, 
sincerity, respect, trust, these things had to be forged over 
forest policy.
    It was not easy. We came into this with a great deal of 
cynicism and mistrust, and we basically had to prove that we 
were willing and open to hearing other views about how the 
Siuslaw National Forest ought to be managed. And they had been 
excluded. They had been excluded from the discussion for 
decades, and when they came back in, yes, they had a lot of 
bitterness to work through.
    Mr. Panetta. Sure.
    Mr. Furnish. But after a while, when they felt that they 
were being respected and listened to, then we got down to work. 
And we really started to make things happen. But the first key 
was to invite them into the room. And the second thing was to 
listen, and listen hard, and be humble. Take your medicine.
    Mr. Panetta. And you write about that in your book that you 
held up there?
    Mr. Furnish. I do.
    Mr. Panetta. Is that part of it?
    Mr. Furnish. Yes.
    Mr. Panetta. And have you seen that? In your experience, 
have you seen that process replicated anywhere else in our 
Nation when it comes to managing our forests?
    Mr. Furnish. Well, I would say there has been a wave of 
what I call a collaboration movement within the Forest Service 
over the last 10 or 15 years. I would say the best examples of 
collaboration, I think, mirror the experience I had on the 
Siuslaw. It works in some places and it doesn't in others.
    I would say that places where I see it not working is where 
you put your thumb on one side of the scale and begin to 
mandate and approach an outcome. And when you get your finger 
off the scale, then you have a chance.
    Mr. Panetta. Great, thank you. I yield back.
    Mr. McClintock. Thank you.
    Mr. Thompson.
    Mr. Thompson. Thank you, Chairman. And thanks to the 
members of the panel for being here. Clearly, we are seeing 
some higher temperatures, certainly. And I appreciate the 
observation that that provides for longer growing seasons. 
Quite frankly, I think that just calls for more aggressive 
active management, because the overstory and the understory are 
growing at rates where we are not harvesting anywhere close 
to--anywhere I know, within the National Forest System--the 
sustainable rate.
    I think the active management fulfills a promise, a 
contractual obligation that our predecessors--when national 
forests were created, that was an obligation between the 
Federal Government and our communities and our counties. I have 
a national forest, I am one of those eastern national forests. 
I have to tell you my communities are not better off today, 
economically; they struggle. Our schools wonder how they are 
going to keep the lights on; the Federal Government has not 
fulfilled its obligation.
    If this was health care, it would be a malpractice suit, 
and we would resolve it. I am not much for attorneys and 
malpractice, but maybe we ought to extend that to the Forest 
Service. It seems to work in other situations.
    I also think, as a firefighter--although I am kind of an 
old, fat firefighter today, so I am a little slow, but I still 
have my turnout gear--but as a firefighter, prioritizing 
restorative work over active management is like letting a house 
burn down only to celebrate that we do really good salvage and 
overhaul work. It does not serve anyone.
    My question, Mr. Freeman, in Douglas County, Oregon--your 
county--are your forests healthier than they were in the 1990s?
    Mr. Freeman. Thank you for the question. Absolutely not. 
Our forests are overgrown, both the O&C land that is in Douglas 
County and the Umpqua National Forest. When we have wildfires, 
they are much more intense. There is a lot more wood on the 
ground that burns than ever before, and they burn much hotter.
    After the fire, both the BLM and the Forest Service have 
chose not to go after salvaging what is really a valuable 
resource, because the time it takes to get through the 
litigation, the value of that timber is lost and there is no 
reason to do it. So, you end up just leaving huge stands of 
burnt trees to rot.
    So, on top of all that, during the fires--and I got to 
witness a lot of fire activity in the fire camps as it 
happened--the O&C is a checkerboard pattern of ownership, so it 
is public land and private land. And you can watch the fire 
activity as it goes through these sections of land. When it is 
on the private land, they almost get a handle on the fire. And 
then it crosses back over into the public, and it just takes 
off again.
    There was a question earlier about, if the management makes 
a difference, and it certainly makes a difference as it 
pertains to fire and putting fires out.
    Mr. Thompson. So, forest health sounds like it is getting a 
failing grade since the 1990s. How about your economic health?
    Mr. Freeman. Again, thank you for the question. And perhaps 
worse than the public services that I talked about earlier has 
been the loss of jobs in the private sector. The lack of 
adequate timber supply has caused many of our mills to close 
and forced thousands of people out of work. Some mills in our 
area even have to import timber from Canada in order to have 
raw materials they need for operations.
    We live in a sea of timber. We, nevertheless, must buy and 
transport logs from Canada. It is a sad irony that makes local 
residents question government at every level.
    Mr. Thompson. I am fortunate. They describe our forests in 
the East, at least in Allegheny, as asbestos. Not that we don't 
have forest fires, but they are limited in scale, compared to 
what I know are suffered in the West. But our wildfire impact 
is our invasive species. I know currently on the Allegheny 
National Forest we have huge stands of ash that the emerald ash 
bore has taken down. We have a market for it, there is a 
foreign market we know for it that are anxious to get access 
to; but the longer that stands, the less value is there.
    I know you have more wildfires, but are there situations 
where you have a valuable asset that could contribute money to 
your communities that is going to waste, standing?
    Mr. Freeman. Absolutely, both on fire and bug infestation 
and some drought-related trees that died. We used to say we had 
about 2 years to harvest Douglas fir before the bugs got into 
it and made it unvaluable. Now that has sort of sped up. There 
is so much dead standing timber around, the bugs are so 
intense, that within probably a year or so now that timber is 
not worth the value to take it out.
    And, of course, if it is not taken out, there is not a new 
forest planted. If we were to harvest it, we would plant a new 
forest, and it would grow back. So, we are literally taking 
these huge stands of timber out of the rotation for a long, 
long time.
    Mr. Thompson. Thank you, Chairman.
    Mr. McClintock. Mr. Tipton.
    Mr. Tipton. Thank you, Mr. Chairman. I thank our panel for 
taking the time to be here. And I applaud Mr. Westerman, in 
terms of his expertise and hard work that he is putting in on 
this legislation.
    Mr. Neiman, you have established Montrose Forest Products 
in my district. I think it is worthy of note that that was the 
last standing mill in the entire state of Colorado, and you 
brought that out of receivership.
    In terms of some conversations we have had through our 
district office, there is a desire to be able to expand 
production, to be able to increase shifts, to be able to create 
jobs. And as Mr. Thompson was just pointing out, to be able to 
provide more revenues for schools, to be able to create a 
healthy environment, to be able to protect our watersheds, and 
to be able to protect the structures in a variety of the 
communities within the state of Colorado.
    During your testimony, you had cited some of the challenges 
that we see with the NEPA process, in terms of the complexity, 
the longevity of those studies that are going on. What effect 
would you say that a drawn-out NEPA process has in terms of 
Montrose Forest Products' ability to be able to add those well-
paying jobs and to be able to create that forest health?
    Mr. Neiman. Thank you, Congressman Tipton. I am going to 
reflect back on your comments and some of the discussions we 
had when we purchased the mill in 2012. We had no timber under 
contract, but the Forest Service partly enticed us in. They had 
40 million board feet on the shelf that had all the work and 
was ready to sell with no purchasers.
    We go ahead and buy the mill--and, by the way, a few of my 
associates thought we were either very brave or idiots, buying 
that mill with no timber under contract. We took the risk, and 
then we went to the Forest Service and all of a sudden they 
started looking at their timber sales and said, ``Oh, my gosh, 
we have bugs on all 40 million feet. We have pine beetle, we 
have the spruce beetle.'' So, they pulled them off the shelf 
and did not offer them because they said there has been a 
change in the process, in the NEPA--a change of conditions.
    So, we started buying wood--291 miles away was our longest 
haul--to keep our commitment to the community. If this bill had 
a quicker way to handle that dead timber, they maybe could have 
re-offered that wood. By the time they got the process 
completed for the second time, those trees had been 3 to 5, and 
in some cases 7, years dead and it was not salvageable. So, the 
process at that time, we wasted a good part of that timber.
    We went ahead and the Rio and some of the other forests 
were moving in and now we have some processes, due to the last 
Farm Bill. It took too long, but things were moving ahead. I am 
excited to see some of the changes in this Farm Bill to do 
larger CEs and move ahead at a quicker pace, when you look at 
the salvage of some of those areas.
    Mr. Tipton. Interesting observation, changing conditions. 
Changing conditions is the trees were dying, and as a result 
you had to haul in wood from 250 miles away just to be able to 
operate the mill.
    Mr. Westerman has put in a lot of work on this legislation, 
and, Mr. Neiman, can you maybe tell me a provision in this bill 
that would be particularly helpful to the facility that you now 
own and operate in our district? And what specific challenge 
would a bill be able to address for you?
    Mr. Neiman. The salvage CE that I just briefly talked 
about, and the salvage authority that is in there in Section 
201, those are going to be very, very helpful. Those are going 
to be important, I think, to help the Forest Service act 
quicker and still comply and follow with all the rules. It will 
give them an opportunity in salvage cases to get the wood up 
much quicker.
    Mr. Tipton. Great. Well, I appreciate that, and certainly 
appreciate the efforts, the jobs, and your commitment to a 
healthy environment, healthy watershed, being able to help 
protect endangered species, to actually have an environment to 
be able to thrive in through good forest management within the 
3rd Congressional District of Colorado, and appreciate you 
being here.
    Mr. Neiman. It is important to note that we are getting 
strong support from the ranch community and the irrigation 
districts. Water is important to us, and they are seeing the 
benefits both to water and wildlife as we work together 
collaboratively to move ahead in the whole southwest corner of 
Colorado.
    Mr. McClintock. Thank you.
    Mr. Tipton. Thank you, sir.
    Mr. McClintock. We will be doing a second round of 
questioning.
    Ms. Cheney.
    Ms. Cheney. Thank you, Mr. Chairman, and thank you to all 
the panelists for being here today.
    I also want to just add my gratitude to Mr. Westerman for 
his work on this, for this crucial bill which takes steps that 
I think it is unquestionable that they are necessary, in terms 
of improving management in our Federal forestlands. Also, 
reducing frivolous litigation and increasing the tools that the 
Forest Service has for responsible management.
    We have seen across Wyoming the impact that it can have 
when we have these devastating and catastrophic fires. And the 
impact is not just in terms of what it is doing to the forest. 
The impact is the effect it has on our communities, the effect 
that it has on jobs. And, of course, the mismanagement has been 
a direct cause of the bark beetle epidemic we faced, as well. 
So, I applaud this bill, and I support continued action on it.
    Mr. Neiman, I wanted to talk to you a little bit about NEPA 
and, in particular, about large-scale NEPA. If you could 
describe how the Forest Service handles that now. Is it really 
working? And how could that be improved, going forward, in 
terms of some of the provisions in this legislation?
    Mr. Neiman. I could really reflect over the last 40 years 
and talk in depth much more than the 5 minutes allowed here on 
NEPA and the struggles we have had, both in the Black Hills and 
what we have observed in other states.
    There clearly, as I pointed out earlier--the NEPA process 
is improving, but I have watched it shut down forests. I am 
going to refer to one issue. When you look at the NEPA process 
in our new experience in Colorado, the Southern Rockies lynx 
that was adopted has tied up 5 million acres. Guess what is the 
habitat that helps the lynx the most? It is the clearcuts. It 
has a habitat for the white snowshoe rabbit. The old clearcuts 
that shut down all that forest in the 1990s that were clearcuts 
from the 1960s is the only habitat available for them right 
now.
    When I look at some of the bigger--and I will jump to 
answer your question--when I look currently at this bill, this 
will help us do some larger landscapes. They do not need to be 
huge. We have watched some of them get too big. But doubling 
the CEs and helping the NEPA, the litigation that stopped a lot 
of the process in the past has really slowed down. And what it 
does is forces the Forest Service to be perfectionists. They do 
not take any risk, so they analyze it to death.
    Now, this is going to give them some opportunities to 
support, with the right administration, to move ahead with the 
process so that they can have confidence to do the right thing 
and with the right sciences.
    Ms. Cheney. In your estimation, Mr. Neiman, is the choice--
sometimes we hear it described as streamlining the NEPA 
process, or moving toward this kind of large-scale approach, 
that somehow that is going to have a damaging impact on the 
environment, that we have to choose. In your experience, is 
that the case?
    Mr. Neiman. Absolutely not. No question. It is not going to 
be a choice of one or the other, and it is not going to damage 
the environment. It is going to help move us ahead and treat 
some of the acres. As my dad has said many times, sometimes the 
worst thing you can do is to do nothing. And that is what we 
used to do.
    Ms. Cheney. Thank you. And let me just talk a little bit 
about the Good Neighbor Authority and ask you if you could 
describe how that has worked, and what considerations you would 
urge us to use, in terms of trying to expand it nationwide, and 
making it as effective as possible.
    Mr. Neiman. My understanding of the new bill, the Good 
Neighbor--one of the issues that we are faced with right now is 
the road issue that is tied back to that. If there are any 
roads, you can't--so this bill allows the states to work with 
the Forest Service and deal with some of the reconstruction of 
roads. That is an important issue to take care of. You have to 
have roads, and you have to have access to the timber.
    Bringing that provision back in to the Good Neighbor 
Authority will help that tremendously, so I support that. 
Expanding it beyond just right next to the borders will also 
help that, too.
    In the case of, in Colorado----
    Mr. McClintock. I am going to have to call time on that, 
but we will do a second round.
    General Bergman.
    Mr. Bergman. Thank you, Mr. Chairman.
    Commissioner Freeman, over the past 30 years or so, changes 
in Federal forest management policies have significantly 
reduced forest management activities in the forests. I know you 
have talked a little bit about this already, but would you 
elaborate a little more on the impact this shift in policy and 
the significant decline in the forest production has had on 
your community and the jobs and the opportunities available to 
the residents, or potentially future residents?
    Mr. Freeman. Yes. Thank you very much for the question. I 
believe somewhere along the way that we have forgotten the 
purpose of timber and forestlands as a means to also create 
habitat for the human species.
    When I graduated high school 30-something years ago in a 
little town called Oakland, Oregon--we call it the real 
Oakland; I understand there is an Oakland somewhere else--the 
people that I went to school with went to work in the logging 
industry or in the mills, oftentimes making more money than the 
teachers that were teaching them at school. Everybody could 
have a job if they needed one.
    Over this last 30 years, what has happened is our community 
now is known for exporting our youth. There is very little 
opportunity for young people in our community. They have to 
leave rural Oregon to go find employment. That, in itself, has 
really been tragic.
    On top of that, areas like the Umpqua National Forest that 
were managed very well in the heyday of management, they were 
harvesting less than 50 percent of what grew in that forest, 
and there was a balanced approach, because it was a multiple-
use forest. In 2012, the last year we have seen data for, they 
harvested about 4 percent of what grew.
    In my testimony earlier, I talked about the O&C lands--the 
O&C lands grow 1.2 billion board feet of timber a year. The 
plan calls for harvesting just over 200 million. Currently they 
are not harvesting even close to that.
    Mr. Bergman. Thanks. I hate to cut you short on this 
because I have limited time, and I want to get to the next 
question here. Some have asserted that the lost forest products 
industry jobs can be replaced by recreation. Do you believe 
this is the case, or is a healthy forest products industry 
critical to your community's economic health and well-being?
    Again, I have one more question, so give me a short answer.
    Mr. Freeman. I will be quick. Thank you for the question. 
It has to be all of the above. There is always this idea that 
it has to be one or the other. People cannot recreate if they 
don't have a job and the money to go recreate. I was told this 
a long time ago: if you are living in your car, you are really 
not camping.
    Mr. Bergman. Living in the middle of the Ottawa National 
Forest in the Upper Peninsula of Michigan, 1 million acres, we 
have three national forests in the first district: the Ottawa, 
the Hiawatha, and the Huron-Manistee. We live there because we 
use it for recreation. We use it for all the right reasons, and 
we manage it as best we can, given the current guidelines, to 
promote health of all species, including the human species, as 
well as everything that flies, swims, or walks.
    So, would you agree with the statement that the best 
option, going forward, is some kind of a shared use of those 
lands to management by forestry and for forestry and 
recreational activities by concerned partners with a skin in 
the game here?
    Mr. Freeman. I believe absolutely everything is possible, 
if done correctly.
    Mr. Bergman. OK, thank you, and I yield back, Mr. Chairman.
    Mr. McClintock. Thank you. We are going to go to a second 
round.
    Commissioner Freeman, you mentioned something that brought 
a memory back to me. You talked about the behavior of fires at 
treated land. I have now lost over 1,000 square miles of 
forestland in my district alone over the last 5 years to 
catastrophic wildfire. I have gone to all of the command 
centers.
    When I visited the command center for the Rough Fire that 
threatened Yosemite Valley, I asked the firefighters what 
message can I take back to Congress in your name? They did not 
mention climate change, they mentioned two words: treatment 
matters. They said that where the fire hit treated acreage, it 
slowed to the point where they could often extinguish it, but 
there wasn't enough of it. And that was the message they wanted 
me to take back to Congress. Was that essentially the point you 
were making earlier?
    Mr. Freeman. Yes, sir. Absolutely.
    Mr. McClintock. They told me on the King Fire--and I will 
never forget that day, because this is the one time where the 
firefighters, who were usually cool, calm, and collected, were 
actually frightened. They thought they were going to lose the 
communities of Georgetown and Forest Hill that day. If they 
had, the fire would have burned on to Tahoe.
    One of the firefighters, one of the senior guys, comes to 
me with tears in his eyes. He says, ``Congressman, I can't even 
get to this fire on the ground.'' He says, ``We used to have 
good timber roads. I could get the equipment on the ground with 
these fires. All I can do now is drop stuff from the air and 
pray to God the wind shifts.'' His prayer was answered, and if 
it hadn't been, we would have lost those communities.
    That is what they also tell me. Is that the situation in 
your neck of the woods, as well?
    Mr. Freeman. Well, it most certainly is. Back when we had 
active forest management, we had people in the woods, loggers 
in the woods, and that stopped a lot of these fires before they 
got going.
    Mr. McClintock. That is a tale I hear over and over again 
in my district, in the Sierra.
    Mr. Freeman. Yes. And today, when these fires get going, 
they burn much hotter and much faster than they did, 
historically, because of the amount of wood that is on the 
ground.
    And what I tell people, these forests are going to grow, 
regardless of whether we manage them or not, so we are either 
going to grow timber products and use them, or we are going to 
grow firewood.
    Mr. McClintock. That brings me to my next question, where 
you mention 1.2--did you say 1.2 billion board feet grown in 
the O&C forest every year?
    Mr. Freeman. Every year, yes.
    Mr. McClintock. And 200 million board feet harvested?
    Mr. Freeman. The plan calls for that. They are, oftentimes, 
not achieving that.
    Mr. McClintock. So, at the most, 6 to 1, and you are saying 
they are not even achieving that.
    Mr. Freeman. Yes, sir.
    Mr. McClintock. OK. Now, what happens to the other billion 
board feet every year?
    Mr. Freeman. It just stacks up on the land.
    Mr. McClintock. So, if I had a subscription to and received 
six newspapers a day, and only threw one away, how long would 
it take for my house to become a fire trap? Probably about as 
long as the forest.
    Mr. Freeman. Yes, that is a great analogy. That is exactly 
what happens.
    Mr. McClintock. What would the Good Neighbor Authority in 
this bill do for the road problem?
    Mr. Freeman. Well, I think, certainly, on the road access 
and making sure that, especially in this patchwork area of 
land, that the industry folks, along with the agency folks, 
have equal footing on access, it makes a big difference.
    And also, it sort of creates an even playing field between 
the industry folks and the agency.
    Mr. McClintock. We were told that this is a false choice 
between the economy and the environment, and I could not agree 
more. A forester told me long ago, all the timber comes out of 
the forest one way or another. It is either carried out or it 
is burned out, but it comes out. When we carried it out, we had 
healthy, thriving economies in my mountain communities and a 
healthy, thriving forest. When we changed the laws that have 
made it virtually impossible to manage our lands, our economies 
have withered and our forests are dying.
    That is the story of the Sierra. Is that also the story in 
the forests in your region?
    Mr. Freeman. Yes, sir.
    Mr. McClintock. Mr. Neiman, how would you characterize it?
    Mr. Neiman. Well, in the Black Hills we have 4.5 million 
visitors a year that visit the Black Hills. The water flow off 
the Black Hills went down over the last number of years, so 
there is a direct tie. Our whole area has strong support. They 
see that it is synonymous, that it is important. Our area sees 
the timber industry as the important tool in the toolbox for 
the Forest Service to treat----
    Mr. McClintock. Do you have a spotted owl population or 
habitats in your region?
    Mr. Neiman. We have goshawk, pine marten----
    Mr. McClintock. We used to have an awful lot of spotted owl 
habitats in my region, and the King Fire alone--scores of them, 
as I recall, I think the figure was 80, were wiped out by the 
fire, because we could not properly manage the land to prevent 
those fires before they happened.
    One final thing. Mr. MacDonald, I just wanted to emphasize 
a point you made. We are not even producing enough timber to 
meet our own needs as a Nation now, we are importing timber?
    Mr. MacDonald. That is correct, sir.
    Mr. McClintock. And we have seen an 80 percent decline in 
timber harvest since the 1980s, is that correct?
    Mr. MacDonald. That is--yes, sir.
    Mr. McClintock. Thank you.
    Ranking Member.
    Ms. Hanabusa. Thank you, Mr. Chair.
    Mr. Furnish, while potentially controversial, salvage 
logging is often an appropriate tool that allows the harvest of 
commercially viable timber without disrupting the sensitive 
post-fire landscape. However, because each fire is different, 
and ecological concerns have been considered, it is important 
that salvage operations are analyzed on a case-by-case basis.
    The Healthy Forest Restoration Act provides the Forest 
Service with an expedited approval process for salvage 
operations. But this draft bill expands on that irresponsibly 
on the authority in a way that could create a lasting 
ecological damage if improperly applied.
    First, Mr. Furnish, can you define that when we hear 
salvage operations, what does that mean? And also, when do you 
believe it is appropriate to authorize such an operation?
    Mr. Furnish. I think the Forest Service has benefited by a 
lot of scientific research over the last few decades, and my 
point of reflection would be back when I entered the Forest 
Service in the mid-1960s. It was, I would say, kind of a given 
that fire-killed timber would be salvaged. It just followed 
that if you had a fire, you salvaged the timber and moved that 
to market. I think, over time, we have come to understand that 
the whole issue of fire is very complex. The issue of dead 
timber is not a ``lost resource,'' it is transferred and 
repurposed by nature for other things.
    So, I would just say that, whether you are dealing with a 
Ponderosa pine type, a lodgepole pine, mixed conifer, eastern 
hardwoods, western Douglas fir, each of these has their own 
unique personality and complexity that deserves careful, 
meritorious consideration when it comes to things like fire 
salvage.
    I do believe that removal of dead timber has a place in 
these questions. But I do not agree that dead trees ought to be 
removed from the Forest Service--or, excuse me, from the 
forest. It is not that simple. It is much more complex. And I 
do think the Forest Service is at least trying to bring to this 
issue a much more thoughtful outcome.
    Ms. Hanabusa. Congressman Westerman is a great advocate of 
this bill. He pointed out in his explanation of the bill that 
the two major differences between this version and the version 
that was here last year--I think it is in Section 103 where it 
used to be, I think, 250 acres, and now it is going to be 
10,000 for the categorical exemption of the NEPA.
    Do you agree with that?
    Mr. Furnish. Well, I think--at least I go back to the 
original law, NEPA. And I would agree that this is your job, to 
enact laws. So, I agree that this is within your purview. But 
the original idea of the categorical exclusion was that it was 
excluded from detailed consideration, analysis, and 
documentation. And it was predicated on being either minor in 
context or repetitive in nature, so that it could be excluded 
from environmental documentation and would allow the agencies 
to just move forward.
    I think this is a misapplied fix of the notion of a 
categorical exclusion to create ever-larger exclusions that I 
think do not honor the original nature of NEPA. But again, this 
is your job to look at laws and change laws. I just don't think 
that this is the way to do it.
    Ms. Hanabusa. So, when we talk about the categorical 
exclusion--and that means that it does not have the usual kinds 
of reviews--can you see or in any way justify or support a 
situation where you feel like 10,000 acres in certain 
circumstances may be properly part of or subject to this 
exclusion, and that is somehow in our best interests?
    Mr. Furnish. Well, I mean, on just personal taste, that is 
way too big for me. That is too big a gulp. But I would say 
that I do believe in expedited approaches and putting your foot 
on the gas when circumstances warrant. And there are ways that 
the agency, in cooperation with other parties, can do these 
things. I am all for that.
    But I think caution needs to be exercised so that it is not 
overdone. So, when I hear things like 10,000 acres, 30,000 
acres, those, to me, are just too excessive.
    Ms. Hanabusa. Thank you, Mr. Furnish.
    Mr. Chairman, I yield back.
    Mr. McClintock. We will go to Mr. Pearce next, who deferred 
on our first round.
    Mr. Pearce. Thank you, Mr. Chairman. I appreciate each one 
of you being here today.
    Mr. MacDonald, you had talked a little bit about the median 
decrease in the cost of single family homes spurring the 
economy. As you look at the bill in front of us today, do you 
think that it would facilitate lowering the cost of entry for 
median wage earners back into the housing market and spurring 
the economy, getting economic growth? Will this bill accomplish 
part of that or all of it?
    Mr. MacDonald. Yes, sir. Every time that we can bring on 
another home buyer in the affordable realm in the United States 
we are not only creating another home for a family, but we are 
also creating countless jobs, as it goes all the way down the 
food chain. And that falls all the way through the economy, at 
every level.
    As we have seen in the last economic recovery, you really 
do not have a solid economic recovery unless you have an 
economic recovery in the housing market. The housing market 
drives this economy, and always has, and always will.
    Mr. Pearce. Thank you, sir.
    Mr. Freeman, you have talked a little bit about the active 
management of our Federal forests, the threat of wildfires in 
your community. I find the same thing in southern New Mexico.
    In other words, we used to have the jobs you were referring 
to. They used to do a good job of keeping balanced out. They 
would fund the schools. The Forest Service decided they were 
going to quit cutting trees. It starved us for jobs. We export 
our young people away from those rural communities. We also 
break down the economy of rural states like New Mexico. We are 
a resource-driven state, so it chokes off one of the main 
resources we have.
    Some have testified that a community only needs to perform 
fuel reduction work in the area surrounding the community in 
order to protect it from the catastrophic wildfires. Do you 
agree with that viewpoint, or would you take a different 
viewpoint?
    Mr. Freeman. Thank you for the question. I think it has to 
be much more than just a fuels reduction program or some of 
these restoration things that go on. I don't think the Federal 
Government could ever afford to treat these lands like they 
would a park. And that is really oftentimes what these 
restoration programs look like.
    I think there has to be active forest management across the 
landscape to reduce some of the fuel loads. That will certainly 
help with the fires.
    Mr. Pearce. Yes, thanks. Just in confirmation of that, I 
have been working for the last 5 years very closely with the 
National Association of Forest Service Retirees. They are 
people who spent their life in the Forest Service, and they are 
very, very critical of the way that we are managing our forests 
today, and choosing to burn them down rather than to go in and 
mechanically thin them.
    I actually used a retired fire investigator out of the Los 
Angeles forest--he was there for 30 years--to come in and study 
the fire in my district that burned down 255 homes. It burned 
right through any small efforts to clear away and protect that 
area, because when you get the raging wildfires in the West 
with these 60, 70, and 80 knot winds, then it blows through 
everything. The embers will move miles downstream. We almost 
lost the entire community of Ruidoso.
    So, the gentleman that came in, Bill Dare investigated the 
fire and said it is completely mismanagement.
    So, we see that the species, the spotted owl, thrives more 
in the logged areas. Our communities thrive more in the logged 
areas, which, again, is what you were saying. The job market 
thrives more. The economy of the state thrives more. Yet we 
can't get the Forest Service to do almost anything.
    Our forests in New Mexico are about a million acres, 
generally, and they are doing 30-acre projects. They are doing 
this extensive paperwork that is required, EIS, NEPAs, 
whatever, and they are doing that for 30 acres. How in the 
world are we ever going to get a million-acre forest cleaned up 
a 30-acre block at a time?
    So, for me, Mr. Chairman, I really appreciate you having 
this hearing, because this is at the essence of protecting the 
communities in the West, both our jobs and safety from a 
perspective of the forest fires that burn right through our 
communities.
    Again, I appreciate all of your testimony today, and thank 
you for being here.
    I yield back my time, Mr. Chairman.
    Mr. McClintock. Mr. Westerman.
    Mr. Westerman. Thank you, Mr. Chairman. Thank you for doing 
a second round of questioning. I want to publicly acknowledge 
the input we have had from Democrats on this bill, and for the 
ones that will be co-sponsoring the bill.
    Mr. Chairman, we are in a day in time where my constituents 
ask me all the time, is there anything that Republicans and 
Democrats can agree on? Is there something that you can do 
together that is good for the country? And I tell them all the 
time--I will ask them, do you like trees? Do you like healthy 
forests? And Republicans, Democrats, Independents alike like 
healthy forests. They like trees. And there is no downside to a 
healthy forest. It is a win-win-win.
    I tell my constituents and others that if there is anything 
we should be able to agree on, it is to take care of this 
treasured resource that we have.
    They ask me all the time, ``Do something where you don't 
have all the rhetoric.'' Forestry and healthy forestry is the 
perfect thing to do that with. We have science that tells us 
what a healthy forest looks like.
    Mr. Panetta talked about the forest fire in his district. 
And, I believe it is the same fire, where I also saw a picture 
of a mountain slide that went into the ocean.
    And Mr. Neiman, one thing that we have done in this bill is 
try to address concerns that we had out of the 114th Congress, 
and also to look at not just the arbitration, but to look at 
things to help improve water quality, and to be able to address 
water issues in the West using our forest to manage that. Can 
you talk briefly about the nexus between good forestry 
management and protecting our watersheds?
    Mr. Neiman. I can step back a little bit, and I go back to 
the Black Hills. We have example after example where we have 
logged in the Black Hills, and the stream flow and the 
establishment of trout year after year for about a 15-year 
period was very healthy. Then the forest grew back up, the 
streams dried up, and you lost your fishing and the clean 
waters.
    I would love to show you some direct examples of those that 
are just evident, the relationship between selective proper 
management and what it does to water quality and stream flow.
    Mr. Westerman. I have been reading a lot of articles by 
groups like the Nature Conservancy that talk about how you can 
use natural solutions to solve problems, and forestry is a 
natural solution to solve an issue with water management in 
many areas.
    Mr. Furnish, I understand you are opposed to this bill. It 
is pretty evident as I look at your testimony. It says, 
``Speaking bluntly, the bill before you seeks to enact 
legislation that is an affront to well-entrenched pillars of 
our democracy and culture as a society, a society blessed with 
a legacy of stunningly rich public lands.'' You also go on to 
say, ``My experience literally screams that this bill is 
misguided, unnecessary, ultimately harmful, and just plain 
wrong,'' with wrong in all caps.
    My teenagers tell me, ``Don't ever type in all caps, Dad, 
because that means you are screaming at someone.''
    ``This bill breeds mistrust,'' which, to me, this sounds 
like a lot of rhetoric, the thing we are really trying to avoid 
here. And we want to base this on the science.
    You actually said some things in your testimony that I 
agree with. You talked about how timber production does not 
have to be the driving force on Federal lands. But it does need 
to be part of the equation.
    I understand the Siuslaw Forest--if I said that right--that 
is an old plantation forest. It was planted in the 1960s. And 
we know that sound management tells us that you need to thin 
plantations.
    But the question is, will you continue to manage that 
forest in the future?
    And also, I think you stated in your book, ``How did 
the''--that the land told you of its distress.
    My question to you, what is the land saying now? Is the 
land not distressed now? Does it not cry out for us to manage 
it, and to implement sound scientific principles on our 
landscape?
    Mr. Furnish. I have 15 seconds to respond? The Siuslaw is 
healthier than it has been in a long, long time, and that is 
because we have been practicing restoration forestry, not 
timber exploitation.
    Mr. McClintock. Thank you.
    Mr. Tipton.
    Mr. Tipton. Thank you, Mr. Chairman. And I associate myself 
with the comments of Mr. Westerman, in terms of having an 
opportunity to be able to create win-wins, in terms of forest 
health, and being able to admirably take care of our public 
lands.
    We have a great example, actually, in southwest Colorado, 
outside of Pagosa Springs, where they went in through the 
Forest Service and treated an area. Springs that had not flowed 
for years started to flow again. Healthy forests were created, 
and we turned around from that pilot project, Mr. Chairman, 180 
degrees and looked, to my untrained eye, at a pretty forest.
    The Forest Service was pointing out trees that were growing 
there that should not be at that elevation, the overgrowth that 
was taking place. So, that healthy forest management attitude, 
to be able to create that win-win, I think is essential.
    And Mr. Neiman, you have to be able to deal with a lot of 
the contracts, in terms of being able to make sure that the 
mill has the adequate resources to be able to keep those jobs 
moving. Can you maybe just briefly elaborate for us on timber 
sale and the harvest process, and explain how those contracts 
can be tailored to be able to meet the needs, not only of the 
commercial side, but also of the Forest Service management 
objectives?
    Mr. Neiman. There is a little bit of similarity in the 
relationship between the size of a timber sale contract and the 
CEs and the provisions in this bill that you talk about. 
Clearly, a larger sale helps us because you get in, it reduces 
the cost to move in. If you have a small sale, a half-million 
feet or something, and you are traveling 150 miles, it is very 
expensive.
    The same thing goes with the Forest Service when you put up 
a larger timber sale or stewardship. The larger that can be, 
the more efficient the Forest Service is in putting that up.
    When you look at the CEs, and you jump from a few hundred 
acres to 3,000, the concern, I want to remind you the Forest 
Service has a lot of really sharp, good scientists. Your rule 
of the 10,000 acres, or whatever you decide to use, is a cap. 
They are going to use whatever size below that. But if your cap 
is 300 or 500 acres or 1,000, you restrict them.
    I go north of where you are talking about and go up into 
the Gunnison, you can go out there, there are landscapes that 
are hundreds of thousands of acres that the bugs have wiped 
out. In that case, that is where a 10,000-acre CE or something 
applies. You can go down to some other areas, but they will 
utilize the right size of CE. You have really good scientists 
that are going to make the right decisions.
    So, the higher the cap, it is only a limit that helps them 
work in the right areas.
    Mr. Tipton. If I may in the time we have remaining, I would 
like to be able to go back a little bit to our conversation in 
regards to the NEPA process that you go through to be able to 
actually achieve some of those actual contracts.
    One area that has been identified in terms of a challenge 
is that the Forest Service tries to be able to 
``bulletproof''--I think that was the phrase you had in your 
testimony--some of their analysis for the NEPA process. I am 
wondering. How many of your different projects have been 
involved in litigation when you have been applying to be able 
to actually get a contract?
    Mr. Neiman. We have observed a fair number, there have not 
been many the last few years. I have not observed very many at 
all. But if I go back to around 2000, back in the 1990s, there 
were a number of them, so that has been reduced. The process, 
the Farm Bill, has helped. There has been less litigation, and 
I think this will help, too. This will help.
    Litigation is only a stall tactic, and it forces the Forest 
Service to be perfectionist in what they do in the NEPA 
process. Why? Why does the Forest Service take longer and spend 
much more dollars than any other agency? It doesn't make sense 
that they do that. We have to help them be as efficient as the 
BLM and other agencies to be effective in doing their NEPA 
process.
    Mr. Tipton. Great. Thank you so much, and I yield back, Mr. 
Chairman.
    Mr. McClintock. Thank you.
    Ms. Cheney.
    Ms. Cheney. Thank you, Mr. Chairman.
    I wanted to pick up on the litigation issue and ask you, 
Mr. Neiman, isn't it the case that it is not just the actual 
cost of litigation that is a challenge to the Forest Service--
and I would say to those other agencies you mentioned, as 
well--but it is the fear of litigation, and the threat of that 
litigation that results in this kind of attempt to bulletproof 
and attempt to--basically, the outcome is taking much longer, 
in terms of the approval process.
    So, if you look at the abuse of the court system, and the 
sort of rote filing of lawsuits, while there is no one who 
wants to deny people access to the system, we have to get to a 
place where, in fact, the system is not being abused.
    I think one of the terrific parts of this bill is the 
arbitration provision. And if you could just talk a little bit 
about the impact that the threat of litigation has, even on 
permit processes where there may not have been a lawsuit filed, 
but it is the knowledge that you have groups that are using the 
system and abusing the system, and the cost in a number of 
instances to the taxpayers, because of EAJA, which we are 
trying to reform separately--but if you could talk about that 
abuse of the court system and the impact that has on decision 
making, I would be interested to hear your thoughts on that.
    Mr. Neiman. Well, I have just watched over the last number 
of decades, watched litigation attempt--it actually did shut 
the Black Hills down in 2000. In 1999 through 2001, we had zero 
timber for 2 years due to litigation, until the new forest plan 
came out. That was a killer to us, and we lost two mills in the 
Black Hills due to that one issue.
    I want to talk quickly about two other subjects. And the 
collaborative process that we see going on, both in the Black 
Hills with the multiple-use group, which--the multiple-use 
group has 60,000 members within all the groups that we sat down 
and they put together the National Forest Advisory and that 
collaborative group has worked.
    So, when you take the next step past collaboration, and you 
have the ability to have an arbitrator instead of it going the 
legal route, I don't know how you are going to have it set up. 
I am a little ignorant on how that process will work at this 
point. But I am anxious to observe and see. I would encourage 
you to move ahead with that process. I think that is a good 
start to avoid litigation.
    Ms. Cheney. Thank you very much. And I think it is hugely 
important for us to recognize how important, as you say, that 
collaborative approach is, and ensuring that our local 
communities have the voice that they deserve and that they need 
to have as, really, the best stewards of these resources. So, 
again, I want to thank you and thank everyone for being here.
    And with that, I will yield back, Mr. Chairman.
    Mr. McClintock. Thank you.
    Mr. Pearce, for your----
    Mr. Pearce. Thank you, Mr. Chairman.
    Mr. Neiman, if we follow that discussion on the lawsuits, 
when we get the fires, the crown fires, especially in the West, 
you know how the tree is standing there--how long do they have 
value, if you are going to cut them down? Just approximately, 
if you have a figure. If you don't, that is fine.
    Mr. Neiman. I can give you my experience in the Black 
Hills. You have someplace between--it depends on if the fire is 
early in the season or late in the fall--you have someplace 
between 2 and 10 months in the Black Hills. That is it. The 
flathead wood borer comes in and wipes it out. You cannot do 
anything with it. It is unusable.
    Mr. Pearce. Yes, so the lawsuits generally come from 
outside groups. Have you been able to watch any of those 
lawsuits develop? In other words, the outside groups say you 
cannot log this burned timber because of--and what we see is 
that suit will be thrown out. It is then re-filed by another 
group using almost the same language.
    Mr. Neiman. Yes, we have had cases where we had our 
arbitration group together in parts of Wyoming and in Colorado. 
One group held out and then came back after you had a 
considerable arbitration between great environmental groups, 
like Nature Conservancy and others, that we worked together to 
move ahead. And one purist stayed out and filed a suit.
    Mr. Pearce. Yes, so then 10 months later, at the very 
latest, then you have no value there to extract. Is that 
correct?
    Mr. Neiman. Correct.
    Mr. Pearce. OK. Mr. Freeman, do you ever run across any of 
this level of intervention?
    Mr. Freeman. Mostly in our area, and on the O&C, and on a 
lot of the Forest Service land, they have quit trying to even 
harvest any of the salvage, because they know the litigation 
process will be so costly and take so long, the value of the 
timber will be below what it will sell for. So, they just 
literally walk away from thousands and thousands of acres of 
very valuable wood after these fires.
    Mr. Pearce. Yes.
    Mr. Freeman. We have recently just had the Stouts Creek 
Fire, some of the most beautiful timber you can imagine, very 
high value. The Forest Service virtually took nothing off the 
burn.
    Mr. Pearce. So, our schools starve because we don't have 
the jobs, we don't have the tax base.
    Mr. Neiman, are you familiar enough with the effect of the 
insects? Why do insects get a foothold in our western forests?
    Mr. Neiman. I have a huge amount of experience, or at least 
followed the history. If you go back to Teddy Roosevelt and the 
first timber sale in the United States, it was in the Black 
Hills, 1899. And Teddy Roosevelt came out in 1904 and, seeing a 
bunch of dead trees, called in a world-renowned entomologist to 
the Black Hills, identified it as the Black Hills pine beetle, 
and renamed the mountain pine beetle, because they found out it 
was endemic throughout the West.
    What they discovered then was thick, old growth, dense 
stands are going to be attacked by the bug. And it is a 
function--if the trees have the water, it can create the sap 
and eject the bug. If the tree does not have enough water, then 
the bug gets in epidemic state, it can attack and kill the 
tree.
    So, very similar situations. Old growth, high-density 
stands, not enough water because of closed-in canopies.
    Mr. Pearce. Again, your earlier comments seemed to indicate 
that dense growth equals not enough water. Is that correct?
    Mr. Neiman. Correct.
    Mr. Pearce. Yes. Dense stands of trees contribute to not 
enough water. Are they linked together at all? They appear to 
be in New Mexico.
    Mr. Neiman. Yes.
    Mr. Pearce. We are a very arid climate. We do not get much 
rain. So, 100 years ago we had 50 trees per acre. The aquifers 
were filled. We could pump water from fairly high levels. Just 
recently, there was a fire around one of the well fields for a 
small community. The water level had dropped 40 feet over the 
past years. After the fire, it came back 40 feet and another 20 
feet beyond it, so they had never seen levels that high.
    Our trees--the heavy, dense--the density of our forests 
sucked the water up. There is not enough water, not enough 
nutrients. Then the insects get a foothold. They can then work 
their way through an entire forest. And the Forest Service does 
not seem to acknowledge that science, that pathway. Meanwhile, 
we have millions of trees that died in New Mexico and Colorado 
from insects, and we cannot quite figure that out with all the 
scientists in the Forest Service.
    Again, Mr. Chairman, I appreciate your indulgence. I yield 
back.
    Mr. McClintock. Great, thank you very much. I want to thank 
our panel of witnesses for their time and their expert 
testimony today. We rarely go to second rounds of questions, 
which is an indication of how much we valued your testimony 
today and how helpful it has been in the consideration of this 
measure.
    Our Members may have additional questions. If they do, we 
will keep the hearing record open for 10 business days so that 
those can be included in the official record.
    With that, if there is no further business to be brought 
before the Subcommittee, the Subcommittee stands adjourned.

    [Whereupon, at 11:55 a.m., the Subcommittee was adjourned.]

            [ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD]

     Prepared Statement of Tom Tidwell, Chief, U.S. Department of 
                              Agriculture
                          U.S. Forest Service
                              Submitted To
    House Natural Resources Committee, Subcommittee On Federal Lands
                                   On
               The Resilient Federal Forests Act of 2017

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to present a statement regarding the Resilient Federal 
Forests Act of 2017. The U.S. Forest Service is currently reviewing 
this discussion draft, and the Administration does not have a position 
on it at this time.

    We appreciate the significant work the Subcommittee put into this 
bill since it was last introduced in the 114th Congress. We also 
appreciate your efforts to incorporate Forest Service comments and 
recommendations and are encouraged by many of the goals outlined within 
this bill. We look forward to continuing to work with you and your 
staffs on the details to ensure this legislation results in meaningful 
improvements to forest management work on the ground.

    The Forest Service welcomes legislation that expands the toolset we 
can use to restore our Nation's forests while staying within the 
boundaries and intent of the National Environmental Policy Act and the 
Endangered Species Act. Forest restoration projects provide rural jobs, 
mitigate the severity of wildfires, enhance watershed conditions, and 
ensure a variety of other economic, social and environmental benefits 
for the American people. Provisions that expand categorical exclusions, 
incentivize collaboration, and streamline environmental analysis or 
consultation with other Federal agencies are all important issues in 
the bill that we are reviewing.

    It is notable that the Resilient Federal Forests Act does not 
contain provisions that would mandate harvest levels, require a new 
layer of zoning on the National Forests, or elevate one use over 
another on these multiple-use lands, as we have seen in other recent 
forestry bills.

    While we support efforts to provide new tools to improve forest 
management and restoration, capacity constraints, including the present 
approach to budgeting for wildfire, continue to be impediments to 
increasing the pace and scale of this work. We look forward to 
continuing to work with you on the wildfire title to find a solution 
that addresses the disproportionate growth of fire programs as a share 
of the agency's overall budget.

    Again, I thank you for the opportunity to provide this statement. 
The Forest Service stands ready to continue working with you on this 
important legislation.

                                 ______
                                 

           NATIONAL ASSOCIATION OF STATE FORESTERS,
                                             Washington, DC

                                                      June 13, 2017

Hon. Rob Bishop, Chairman,
Hon. Raul M. Grijalva, Ranking Member,
House Committee on Natural Resources,
Washington, DC 20515.

    Dear Chairman Bishop and Ranking Member Grijalva:

    The National Association of State Foresters (NASF) is pleased to 
provide comments on the Resilient Federal Forests Act of 2017. NASF 
represents the heads of state forestry agencies in all fifty states, 
the District of Columbia and the US Territories. Through the 
development of comprehensive State Forest Action Plans our members 
maintain a broad view of the full set of forestry ownerships within 
their authority, including federally owned forest lands. For citizens 
of the United States to realize a full set of forest related benefits, 
federal lands need to provide a complete and balanced set of 
environmental, economic and social values.

    In February of 2016 our organization adopted a formal position on 
desired reforms to federal land management policy. Suggestions are 
organized around:

    <bullet> Reforms that would allow federal lands to develop a more 
            balanced set of social, environmental and economic 
            benefits;

    <bullet> Reforms that would lower the costs of agency 
            administration, planning, regulatory compliance and 
            litigation; and

    <bullet> Reforms that would enable vegetation management to be 
            carried out at a scope, scale and pace sufficient to create 
            more sustainable and resilient landscape conditions.

    We feel this bill would indeed create the end results our members 
support as our members want to see more active management of federal 
forest lands. Expedited planning and analysis, prompt response to 
catastrophic events, alternative dispute resolution, greater 
collaboration and less costly litigation are all outcomes that for 
which we strongly advocate. In addition, we're encouraged to see some 
desired modification to Good Neighbor Authority allowing road repair to 
be part of cooperative projects, as well as support for giving the land 
management agencies the opportunity to make their own determinations of 
endangered species jeopardy or adverse effects. Finally, NASF 
appreciates that this discussion draft recognizes the need to solve the 
wildfire suppression funding issue. We look forward to working with the 
House Natural Resources Subcommittee on Federal Lands and Congressman 
Bruce Westerman to ensure that a solution addresses both fire borrowing 
and the erosion of the Forest Service's budget over-time due to 
increasing wildfire suppression costs.
    We recently provided comments on Federal land management reform to 
the House Natural Resources Committee's Subcommittee on Oversight and 
Investigations. One additional suggestion we made there and would 
repeat here is to ``Require that National Forest Management Plans 
specifically address how they support State Forest Action Plans. In 
addition, encourage regular consultation with State Foresters by 
National Forest System leadership to ensure their annual programs of 
work are dovetailed where appropriate.''

    Thank you for this opportunity to comment. We would be happy to 
answer any questions or provide any additional information that might 
be of assistance.

            Sincerely,

                      Bill Crapser, Wyoming State Forester,
           President of the National Association of State Foresters

                                 ______
                                 

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

Rep. Hanabusa Submissions

    --  Letter dated June 14, 2017 to Chairman McClintock and 
            Ranking Member Hanabusa from the Alaska Wilderness 
            League; American Bird Conservancy; American Rivers; 
            Center for Biological Diversity; Earthjustice; 
            Environmental Protection Information Center; 
            Friends of the Inyo; Klamath Forest Alliance; 
            League of Conservation Voters; Los Padres 
            ForestWatch; National Parks Conservation 
            Association; Natural Resources Defense Council; New 
            Mexico Sportsmen; Sequoia ForestKeeper; Sierra 
            Club; Sierra Forest Legacy; Soda Mountain 
            Wilderness Council; Southern Environmental Law 
            Center; The Lands Council; Ventana Wilderness 
            Alliance; and Western Environmental Law Center.

    --  Letter dated June 14, 2017 to Chairman McClintock and 
            Ranking Member Hanabusa from the Outdoor Alliance.

                                 [all]
</pre></body></html>
